<html>
<title> - FBI OVERSIGHT: TERRORISM AND OTHER TOPICS</title>
<body><pre>[Senate Hearing 108-804]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-804

               FBI OVERSIGHT: TERRORISM AND OTHER TOPICS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2004

                               __________

                          Serial No. J-108-77

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
20-331                      WASHINGTON : 2005
_____________________________________________________________________________

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........    35
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................    44
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................    29
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa, 
  prepared statement.............................................   237
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     4
    prepared statement...........................................   239
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     2
    prepared statement...........................................   242
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................    38
    prepared statement and attachments...........................   258
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....    41

                               WITNESSES

Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation, Department of Justice, Washington, D.C..........     6

                         QUESTIONS AND ANSWERS

Responses of Robert S. Mueller to questions submitted by Senator 
  Hatch..........................................................    49
Responses of Robert S. Mueller to questions submitted by Senator 
  Grassley.......................................................    51
Responses of Robert S. Mueller to questions submitted by Senator 
  Leahy..........................................................    56
Responses of Robert S. Mueller to questions submitted by Senator 
  Kennedy........................................................   119
Responses of Robert S. Mueller to questions submitted by Senator 
  Feinstein......................................................   131
Responses of Robert S. Mueller to questions submitted by Senator 
  Feingold.......................................................   186
Responses of Robert S. Mueller to questions submitted by Senator 
  Durbin.........................................................   198

                       SUBMISSIONS FOR THE RECORD

Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation, Department of Justice, Washington, D.C., 
  prepared statement.............................................   250

 
               FBI OVERSIGHT: TERRORISM AND OTHER TOPICS

                              ----------                              


                         THURSDAY, MAY 20, 2004

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:40 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch, Chairman of the Committee, presiding.
    Present: Senators Hatch, Grassley, Specter, Kyl, DeWine, 
Sessions, Craig, Cornyn, Leahy, Kohl, Feinstein, Feingold, 
Schumer and Durbin.
    Chairman Hatch. We have got eight here. All we need is two 
more and we can finish this markup in a very short period of 
time. If and when the Director arrives, we will start with him 
until we get ten and I will interrupt to finish whatever we can 
on the markup and then go back to the Director. That way, we 
will get at least the minimum amount of work done that we have 
to get done today.
    So if the Director is available, let's get him in here.
    Welcome, Mr. Director. We have got nine here. As soon as we 
get ten, we will interrupt whatever we are doing and do the 
minimum that we can on the markup today. For instance, I would 
like to get Jonathan W. Dudas out, and we have got a couple of 
other bills that I think we can report, some of these S. Res. 
bills.
    I will be very brief because, as Senators Leahy and Schumer 
have been requesting, we want the Committee to be able to hear 
from Director Mueller this morning. After Senator Leahy makes 
his opening statement or whatever he cares to make, I want to 
consider the nomination of Jon Dudas as soon as we get ten here 
to serve as Under Secretary of Commerce for Intellectual 
Property and Director of the United States Patent and Trademark 
Office. As I understand it, there is no objection to him, but 
if there is, we will meet it at that time.
    I also understand that we can move three commemoratives, 
two relating to World War II veterans and a third recognizing 
the Brown v. Board of Education decision, which we ought to all 
recognize. I also move that we can move S. 1933, the ENFORCE 
Act. We have come a long way on that.
    So with that, I will turn to Senator Leahy for any comments 
he cares to make at this point.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Mr. Chairman, thank you. I would note that 
the agenda does not have the Innocence Protection Act, even 
though you and I and Chairman Sensenbrenner and others made a 
commitment to the country, to the victims, to others, that we 
would move that bill.
    I know that Chairman Sensenbrenner moved the bill, and he 
moved it in a conservative, Republican-controlled House with an 
overwhelming vote. We should try doing the same here. We have 
all had to make compromises on it. We have made commitments. He 
has fulfilled his promise and it is time for us to fulfill 
ours.
    I am glad we are starting with the Director. Last time, we 
left him cooling his heels for an hour or two. I think that 
wasted his time and ours because, our oversight should be the 
most important thing we do up here. When it comes to the 
Justice Department, we don't do a great deal.
    The cicadas come by every 17 years and that seems to be 
about the amount of time that passes between visits to us by 
the Attorney General. However, Director, I am glad you are 
here. I don't want the rhythm of this Committee to be connected 
to the 17-year rhythm of the cicadas.
    I have been supportive of your efforts to more effectively 
concentrate the FBI's resources on the threats and challenges 
we face today. At the time of your nomination, I was the 
Chairman of the Committee and I worked hard to clear the path 
before you. I have done what I can since then to help you 
reform and refocus the Bureau.
    When I have concerns, as you know, I pick up the phone and 
I share them with you privately; you don't read about them 
first in the paper. I very much wanted you to succeed when you 
began as Director, and I want you to succeed now. That is why I 
am going to raise several very serious questions.
    We have all seen the photos from Abu Ghraib. Torture is a 
crime. It is a crime under the Convention Against Torture, to 
which we are a party. It is a crime under our laws. It 
undermines our National security. For months, the 
administration received warnings that this had been going on. I 
was one of the ones who wrote to them and warned them about it. 
Very little was done until the press came forward with the 
photographs. We were assured that things were fine. We were 
given self-serving reassuring statements that turned out to be 
false.
    We read in one article about an Iraqi prisoner who said 
that after 18 days of being hooded and handcuffed, naked, 
dowsed with water, threatened with rape and forced to sit in 
his own urine, he was ready to confess to anything. When his 
interrogators asked him about Osama bin Laden, he replied ``I 
am Osama bin Laden, I am in disguise.'' He would have admitted 
to being anybody else we asked him about.
    The press accounts from last week suggested that the FBI 
shied away from participating in or observing certain 
interrogations of terrorism suspects. At the same time, it is 
clear from the Berg case that the FBI is operating in Iraq. So 
we need more information about what the FBI is doing here.
    We have been assured in the thousand days since September 
11 that big changes are taking place at the FBI. In our 
oversight role, this Committee examines actions. We learned 
from the hearings on September 11 that there were very serious 
problems at the FBI. And we should note for the record what 
should be self-evident: you came in only a few days before 
September 11. These problems were there long before you 
arrived.
    The 9/11 Commission dealt the FBI some of the worst 
criticism yet, saying that much of the FBI does not work. A lot 
of the debate will examine whether the FBI is the right agency 
for the job of handling domestic intelligence and counter-
terrorism.
    None of us question the professionalism of your agents. 
Many of them put their lives on the line everyday. But we worry 
that you have not solved some of your most basic problems. Your 
information technology systems are hopelessly out of date. The 
FBI is not much better off today than it was before 9/11, when 
the FBI was unable to do a computer search of its own 
investigative files to make critical links and connections.
    By all accounts, the Trilogy solution has been a disaster. 
I know I had a concern when I went down there and saw the state 
of the computer systems at the FBI after we spent hundreds of 
millions of dollars. I suspect most small county sheriffs' 
departments have better computer systems. We have put $500 or 
$600 million into improvements and the FBI system has to 
perform better than it does.
    I could spend the whole session talking about the foreign 
translation program at the FBI. 41,000 hours in backlogged 
materials needed to be translated. How do you monitor the 
unprecedented 1,727 new FISA wiretaps calling on your 
resources? I asked in March of this year for the Chairman to 
have a full hearing on this, but we have yet to hear about 
that.
    We want to hear from the Attorney General. You know, I find 
it amazing that on some of the things that the FBI and Justice 
Department are supposed to be doing, we hear from General 
Sanchez and General Abizaid earlier than we hear from the AG.
    So these are my concerns. Regarding the FBI's computer 
system, I will mention one more thing: after 9/11, we saw 
people listening on a phone, writing down notes, handing them 
to somebody to rewrite and then handing them on again to 
somebody else to stick in the file; we saw an inability for 
agents to even e-mail the photographs of the people for which 
we are looking. My 12-year-old neighbor is in better shape.
    But that is what you inherited; that is what you inherited 
the day you arrived. You were there only a few days before 9/
11. Yet after hundreds and hundreds of millions of dollars 
later, I still wonder whether the computer systems are in the 
21st century.
    I have a lot more questions, Mr. Chairman, but I don't want 
to hold you up.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Chairman Hatch. We will provide time for that.
    We have ten here, so I would like to at least get the 
minimal things done that we can.
    [Whereupon, at 10:49 a.m., the Committee adjourned, to 
convene immediately in executive session. The Committee then 
reconvened at 10:51 a.m.]

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    Chairman Hatch. Now, if I can, I am going to make my 
opening remarks here this morning on the FBI Director.
    Today, we are conducting an oversight hearing on the FBI's 
efforts to combat terrorism, as well as any other issues that 
my colleagues care to bring up.
    We are going to have to have order.
    I would like to welcome FBI Director Robert Mueller, who 
will testify before us today. I enjoyed our meeting earlier 
this month and I thought it was very productive. As many of you 
know, Director Mueller started his job one week prior to 9/11. 
And at that time, although the FBI was the subject of intense 
criticism and media coverage, Director Mueller was undaunted 
and took the job head-on. Over the last 3 years, I think he has 
accepted the challenge of transforming the FBI and has made 
every effort to help usher the FBI into the 21st century.
    The challenges that he has undertaken are ambitious and, of 
course, cannot be completed overnight. In an agency that has 56 
field offices, over 400 satellite offices, 52 overseas offices, 
and employs over 28,000 people, it is impossible to know what 
is going on in every place at every moment. Yet, Director 
Mueller had made it his business to find out where the trouble 
spots are and to take every measure to resolve problems, 
investigate any misconduct, and to seek outside expertise, when 
necessary, to address these issues.
    The FBI's number one priority since 9/11 has been to 
protect the American people from another terrorist attack. In 
the subsequent 2 years and 8 months, the FBI has succeeded in 
that goal. Since September 11, 2001, more than 3,000 Al Qaeda 
leaders and foot soldiers have been taken into custody around 
the globe. Nearly 200 suspected terrorist associates have been 
charged with crimes in the United States, and as many as 100 
terrorist attacks or plots have been broken up worldwide.
    As we all know, before September 2001 we had communications 
challenges between the law enforcement community and the 
intelligence community. Sections 203 and 218 of the USA PATRIOT 
Act, which are due to expire on December 31, 2005, have been 
instrumental in breaking down the artificial wall of non-
communication between the intelligence community and the law 
enforcement community.
    By facilitating and encouraging increased communication 
among Federal agencies, the USA PATRIOT Act has paved the way 
for many of the coordination initiatives that Director Mueller 
has undertaken. Perhaps the greatest consequence of the tearing 
down of the wall is that it has set the stage for a new culture 
of cooperation within the Government.
    Before 9/11, Federal, State and local agencies tended to 
operate individually. It takes time to change long-held 
cultural mores and to ensure that everyone is sharing 
information as they should. But Director Mueller has taken 
several key steps in the right direction. Today, the FBI and 
the CIA are integrated at virtually every level of operations. 
Under Director Mueller's leadership, the FBI created the 
National Joint Terrorism Task Force, which works with the FBI's 
newly created Office of Intelligence to coordinate interagency 
intelligence-gathering activities and to act as a liaison 
between FBI headquarters and local JTTFs.
    The FBI is also involved in the Terrorist Threat 
Integration Center, which was established last May at the 
direction of President Bush. It coordinates strategic analysis 
of threats based upon intelligence from the various agencies. 
In addition to all this, the FBI sends out weekly intelligence 
bulletins to over 1,700 law enforcement agencies and 60 Federal 
agencies. So I am looking forward to hearing more about these 
areas during this hearing.
    These impressive accomplishments notwithstanding, the FBI 
still faces some very serious challenges. Let me start by 
commending Director Mueller for taking on the herculean task of 
modernizing the information technology systems at the FBI, a 
project which we all know as Trilogy. It is not an easy task to 
update both local and wide-area networks, and to install 30,000 
new desktop computers. But you have accomplished that and I 
want to congratulate you for having done so.
    On another note, I know that the FBI, like most Federal 
agencies, is facing the challenge of finding qualified 
linguists. While the demand for linguists in various dialects--
Arabic, Farsi, Pashto, Urdu and other Asian and Middle Eastern 
languages--continues to be in high demand, I am heartened to 
hear that the FBI has added nearly 700 translators since 
September 2001.
    I am reassured that the FBI has exacting standards, that 65 
percent of its linguist applicants are screened out by a series 
of qualification tests, and that the FBI has quality control 
measures in place to ensure that the translations are accurate 
and complete.
    Although I recognize that the FBI needs to hire more 
translators to meet their growing demand, I appreciate that 
you, Director Mueller, have adopted an aggressive recruitment 
strategy, advertising in both foreign-language and mainstream 
media, and targeting foreign language departments at American 
universities, military outplacement posts and local ethnic 
communities. I also appreciate that you have prioritized tasks 
so that the most significant counter-intelligence assignments 
are done first, often within 12 hours. I look forward to 
hearing more on this issue.
    In the interest of brevity, I will submit the rest of my 
remarks for the record.
    [The prepared statement of Chairman Hatch appears as a 
submission for the record.]
    Chairman Hatch. Director Mueller, we will turn to Senator 
Leahy for a point and then we will turn to you for any comments 
you care to make.
    Senator Leahy. You know, there is so much good that has 
happened at the FBI under Director Mueller's tenure, but there 
is so much left to be done. There are two phases of Trilogy, as 
you mentioned, that were completed, I think, in April. So FBI 
agents can actually send e-mails to each other. This is not a 
thrilling accomplishment in this age. I have got a 6-year-old 
grandson who sends me e-mails. This is not something that we 
should really say is a great accomplishment that FBI agents can 
e-mail each other, $500 to $600 million later.
    The automated case system, the same system that was part of 
the equation of intelligence and law enforcement failure in 
2001, is still the primary IT tool for agents. We are told that 
a virtual case file would mean the end of agency reliance on 
paper files which seem to get lost, and so on. We should take a 
look at the May 2004 report of the National Academy of Sciences 
which says that this virtual case file is not designed to, and 
it will not meet the FBI's counter-terrorism and counter-
intelligence needs. This is a big agency, and I realize that 
there are areas of security that are needed, but this is too 
slow.
    Thank you, Mr. Chairman.
    Chairman Hatch. Thank you.
    Let's hear what Director Mueller has to say.

 STATEMENT OF ROBERT S. MUELLER, III, DIRECTOR, FEDERAL BUREAU 
   OF INVESTIGATION, DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Mr. Mueller. Good morning. Thank you, Mr. Chairman, and 
also thank you, Senator Leahy, and thank you, members of the 
Committee for having me here today and giving me an opportunity 
to update you on what I believe is substantial progress we have 
made in the counter-terrorism and the intelligence arenas, as 
well as to advise the Committee on the effectiveness of the USA 
PATRIOT Act in the war on terror.
    Before I do begin, however, I would like to acknowledge 
that none of our successes over the past two-and-a-half years 
would have been possible without the extraordinary efforts of 
our partners in State, local and municipal law enforcement, as 
well as our counterparts from around the world.
    In addition, the Muslim-American, the Iraqi-American and 
the Arab-American communities have contributed substantially to 
any success that we will have had in the war on terror in the 
United States. And on behalf of the FBI, I would like to thank 
these communities for their assistance, as well as their 
ongoing commitment to preventing acts of terrorism. The country 
owes them a debt of gratitude.
    Mr. Chairman, I would first like to acknowledge that the 
progress that the FBI has made in reforming our counter-
terrorism and intelligence programs is due in no small part to 
the enactment of the USA PATRIOT Act. For over two-and-a-half 
years, the PATRIOT Act has proved extraordinarily beneficial in 
the war on terror and it has changed the way we in the FBI, as 
well as we in the intelligence community do our work.
    Many of our counter-terrorism successes are the direct 
result of a number of PATRIOT Act provisions, some of which are 
scheduled to sunset at the end of next year. I do believe it is 
vital to our National security to keep each of these provisions 
intact. Without them, the FBI could be forced back into pre-
September 11 practices, attempting to fight the war on terror 
with one hand tied behind our back.
    Let me give you several examples that illustrate the 
importance of the PATRIOT Act to our counter-terrorism and our 
counter-intelligence efforts. First and foremost, the PATRIOT 
Act, along with the revision of the Attorney General's 
investigative guidelines and the 2002 decision of the foreign 
intelligence surveillance court, tore down the wall that stood 
between the intelligence officers of the United States and the 
criminal investigators who would be responding to the same 
terrorist threats.
    Prior to September 11, if a court-ordered criminal wiretap 
turned up intelligence information, FBI agents working on the 
criminal case could not share that information with agents 
working on the intelligence case. And as important, if not more 
important, the opposite was also true that the information 
could not be shared from an intelligence investigation to a 
criminal investigation.
    This increased ability to share information has disrupted 
terrorist operations in their early stages, such as the 
Portland 7 cell, and has led to numerous arrests, prosecutions 
and convictions in terrorist cases. Because the FBI can now 
share information freely with the CIA, with the NSA and with a 
host of other Federal, State, local and international partners, 
our resources are used more effectively, our investigations are 
conducted more efficiently, and American is immeasurably safer 
as a result. We just cannot afford to go back to the days when 
agents and prosecutors were afraid to share information.
    The PATRIOT Act also updated the law to match current 
technology. So we no longer have to fight a 21st century battle 
with antiquated weapons. Terrorists exploit modern technology 
such as the Internet and cell phones to conduct and to conceal 
their activities. The PATRIOT Act leveled the playing field, 
allowing investigators to adapt to these modern technologies.
    Today, court-approved roving wiretaps allow investigators 
to conduct electronic surveillance on a particular suspect, not 
a particular telephone. This technique has long been used to 
investigate crimes such as drug-trafficking and racketeering. 
In any world in which it is standard operating procedure for 
terrorists to rapidly change locations and to switch cell 
phones to evade surveillance, terrorism investigators must have 
access to the same tools.
    Today, Federal judges have the authority to issue search 
warrants that are valid outside the issuing judge's district in 
terrorism investigators. In the past, a court could only issue 
a search warrant for premises within the same judicial 
district, and yet our investigations of terrorist networks 
often span multiple districts. The PATRIOT Act also permits 
similar search warrants for electronic evidence such as e-mail.
    In a final example, Mr. Chairman, the PATRIOT Act expanded 
our ability to pursue those who provide material support or 
resources to terrorist organizations. Terrorist networks rely 
on individuals for fundraising, procurement of weapons and 
explosives, training, logistics and recruiting. By 
criminalizing the actions of those who would provide, channel 
or direct resources to terrorists, the material support 
statutes provide an effective tool to intervene at the earliest 
possible stage of terrorist planning. This allows the FBI to 
arrest terrorists and their supporters before their deadly 
plans can be carried out.
    As an example, the FBI's San Diego office recently 
conducted an investigation in which the subjects of the 
investigation negotiated with undercover law enforcement 
officials for the sale of heroin and hashish in exchange for 
Stinger anti-aircraft missiles. According to the subjects, the 
missiles were then to be sold to Al Qaeda.
    Following a meeting with undercover agents in Hong Kong to 
finalize the purchase, the subjects were arrested by the Hong 
Kong police, working in conjunction with our legal attache 
overseas, and subsequently they were extradited to San Diego. 
Not only does this case highlight the importance of our 
overseas partnerships, but also the value of the material 
support provisions which allow prosecutors to charge subjects 
and to secure guilty pleas and convictions.
    Mr. Chairman and members of the Committee, the importance 
of the PATRIOT Act as a valuable tool in the war against 
terrorism cannot be overstated. It is critical to our present 
and our future success. By responsibly using the statutes 
provided by Congress, we are better able to investigate and 
prevent terrorism and protect innocent lives, while at the same 
time protecting civil liberties.
    Let me turn just for a minute to the progress the Bureau 
has made in strengthening and reforming our counter-terrorism 
and intelligence programs, doing so to support its number one 
priority, that of preventing another terrorist attack. Today, 
the FBI is taking full advantage of our dual role as both a law 
enforcement, as well as an intelligence agency. Let me give you 
a few examples of the progress we have made.
    We have more than doubled the number of counter-terrorism 
agents, intelligence analysts and linguists. We expanded our 
Terrorism Financing Operations Program, which is dedicated to 
identifying, tracking and cutting off terrorist funds.
    We created the Counterterrorism Watch at FBI Headquarters 
to receive threat information around the clock, to assess the 
credibility and urgency of the information, and to task 
appropriate FBI divisions to take action.
    We expanded the number of Joint Terrorism Task Forces from 
34 to 84 nationwide and established, as, Mr. Chairman, you 
pointed out, a National Joint Terrorism Task Force at FBI 
Headquarters. The task force is to serve as a conduit for 
threat information to the local Joint Terrorism Task Forces and 
to the 38 participating agencies, including, I might add, the 
Capitol Police.
    We have created and refined new information-sharing systems 
such as the National Alert System that electronically links us 
with our State and local law enforcement partners. Lastly, we 
have sent approximately 275 FBI executives to the Kellogg 
School of Management at Northwestern University to receive 
training on executive leadership and strategic change within a 
large organization.
    Recognizing that a strong, enterprise-wide intelligence 
program is critical to our success across all investigations, 
we have worked to develop a strong intelligence capability and 
to integrate intelligence into every investigation and 
operation across the FBI.
    We established the Office of Intelligence, under the 
direction of Maureen Baginski, our Executive Assistant Director 
for Intelligence. Maureen, as most of you know, comes from a 
long career at the National Security Agency. The Office of 
Intelligence sets unified standards, policies and training for 
analysts, those analysts who examine intelligence and ensure 
that it is shared with our law enforcement and our intelligence 
partners. The Office of Intelligence has already provided over 
2,600 intelligence reports and other documents for the 
President, the members of the community, and also for Congress.
    We established a formal analyst training program and we are 
accelerating the hiring and training of analytical personnel 
and developing career paths for analysts that are commensurate 
with their importance to the mission of the FBI.
    We developed and are in the process of executing concepts 
of operations governing all aspects of the intelligence 
process, from the identification of intelligence requirements 
to the methodology for intelligence assessment, to the drafting 
and formatting of intelligence products.
    We established a requirements process to identify gaps in 
what we know, and to develop collection strategies to fill 
those gaps. We established Reports Officers positions and Field 
Intelligence Groups in every one of our field offices, whose 
members review investigative information not only for use in 
investigations in that field office, but also to disseminate 
that information throughout the FBI and among our law 
enforcement and intelligence community partners.
    With these changes in place, the Intelligence Program is 
established and growing. We are now turning to the last 
structural step in our effort to build an intelligence 
capacity. In March we authorized new procedures governing the 
recruitment, the training, career paths and evaluation of our 
special agents, all of which are focused on developing 
intelligence expertise among our agent population.
    The most far-reaching of these changes will be the new 
agent career path, which will guarantee that agents get 
experience in intelligence investigation and with intelligence 
processes. Under this plan new agents will spend an initial 
period of time familiarizing themselves with all aspects of the 
Bureau including intelligence collection and analysis, and then 
go on to specialize in counterterrorism, intelligence or 
another operational program.
    The central part of this initiative will be an intelligence 
officer certification program that will be available to both 
analysts and agents, and that program will be modeled after and 
have the same training and experience requirements as the 
existing programs in the intelligence community.
    All the progress that the FBI has made on its investigative 
fronts rests upon a strong foundation of information 
technology. Over the past two-and-a-half years the FBI has made 
a substantial effort to overhaul our information technology, 
and we, I believe, Mr. Chairman, and Senator Leahy, have made 
substantial progress.
    Mr. Chairman, my prepared statement provides greater detail 
on the progress we have made in upgrading our information 
technology, and I will not go into the details here. I will 
say, however, that we have encountered problems, setbacks 
regarding the deployment of our infrastructure known as Full 
Site Capability that was due to come on line last October. The 
contractor indicated that the contractor would not be able to 
provide it by then. We went back and renegotiated, and that 
Full Site capacity was completed on April 30th of this year.
    We are on track to deliver elements of Virtual Case File 
capabilities by the end of this year. We are in negotiations 
with our contractor on finishing out that last part of the 
Trilogy Project.
    And as, Senator Leahy, you have pointed out, the National 
Research Council of the National Academy of Sciences released a 
report reviewing our program, released it I believe last week 
or the week before. We commissioned this review as part of our 
ongoing efforts to improve our capabilities to assemble, 
analyze and disseminate investigative and operational data, 
both internally and externally, with other intelligence and law 
enforcement agencies. Many of the report's recommendations have 
already been implemented or are a work in progress, and my 
understanding is that the Council is looking at those portions 
of the recommendations that have been carried out and will be 
issuing a supplementary report.
    I will again make the point that the FBI has repeatedly 
sought outside evaluation and advice throughout its IT 
modernization efforts, and we will continue to do so.
    Let me conclude, if I might, Mr. Chairman, by saying that 
with the tools provided by the PATRIOT Act and with our 
counterterrorism, intelligence and information technology 
initiatives firmly in place, the FBI is moving steadily 
forward, always looking for ways to evolve and improve so that 
we remain several steps ahead of our enemies. We are looking at 
ways to assess and adjust our resource needs based on threats 
in order to ensure that we have the personnel and resources to 
fulfill our mission.
    Mr. Chairman, let me finish by saying that I appreciate 
this Committee's continued support, and I appreciate the 
opportunity to be here this morning, and I am happy to answer 
any questions you might have.
    [The prepared statement of Director Mueller appears as a 
submission for the record.]
    Chairman Hatch. Thank you, Mr. Director. I am going to 
reserve my 10 minutes and turn to the Democratic Leader on the 
Committee first for questions. We are going to have one 10-
minute round with every Senator given 10 minutes if he or she 
determines that is essential.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. Again, I am glad 
that we are finally having this hearing. I read the press 
reports that make it very clear that the FBI is operating in 
Iraq. I think a lot of us on the Committee on both sides would 
like to know more about what the FBI is doing in Iraq. I will 
send you some written questions which will be basically this: 
How many agents do we have in Iraq? How long have they been 
there? What is their mission?
    The reason I do this, because the Assistant Attorney 
General for the Criminal Division was here two weeks ago. He 
suggested the Department was not currently investigating the 
alleged abuses at Abu Ghraib. I will submit questions to you 
about that too. But let me ask you this: Are you now 
investigating the abuses at Abu Ghraib Prison?
    Mr. Mueller. We are not investigating those abuses. My 
understanding is that the military is investigating those 
abuses.
    Senator Leahy. You have not received any referral from the 
Department of Defense involving the nonmilitary contractors?
    Mr. Mueller. We have not received a referral.
    Senator Leahy. How many FBI agents are in Iraq?
    Mr. Mueller. I prefer to provide that information, if I 
could, Senator, off the record.
    Senator Leahy. All right. On May 13th the New York Times 
reported the interrogation methods employed by the CIA are so 
severe that senior officials of the Federal Bureau of 
Investigation have directed its agents to stay out of many of 
the interviews of the high-level detainees. The article also 
states that, ``FBI officials have advised the Bureau's 
Director, Robert Mueller, that the interrogation techniques 
which would be prohibited in criminal cases could compromise 
their agents in future criminal cases.''
    Did the FBI direct its agents to stay out of the CIA 
interviews of high-level detainees because of the brutality of 
the interrogation methods being used?
    Mr. Mueller. Senator, it is the FBI's policy to prohibit 
interrogation by force, threats of force or coercion. Where we 
have conducted interviews, we have adhered to that policy.
    Senator Leahy. More specifically though, my question was: 
did the FBI direct its agents to stay out of CIA interviews 
specifically because of the brutality of the interrogation 
methods being used? Yes or no.
    Mr. Mueller. Our agents--
    Senator Leahy. That is what the press reported.
    Mr. Mueller. Our agents are under direction to adhere to 
the training and the directions that they have had in terms of 
how to handle interviews. In the case where we have been 
handling interviews, particularly over in Iraq, it has been 
done according to our standards and there has been no waiver of 
that.
    Senator Leahy. I will ask the question for the third time. 
Did the FBI direct its agents to stay out of the CIA interviews 
of high-level detainees because of the brutality of the 
interrogation methods being used? Yes or no?
    Mr. Mueller. The FBI has--
    Senator Leahy. It has been reported--
    Mr. Mueller. If I might, sir, the FBI has directed its 
agents to conform to its policies with regard to the handling 
of interviews, whether it be here in the United States or 
overseas, and to the extent that an agent believes that 
interviews were not being conducted according to the standards 
of the FBI, that agent was not to participate in those 
interviews.
    Senator Leahy. Let me ask you just for the fourth time, for 
the fourth time. Did the FBI direct its agents to stay out of 
the CIA interviews of high-level detainees because of the 
brutality of the interrogation methods being used?
    Mr. Mueller. No.
    Senator Leahy. Thank you.
    Mr. Mueller. But I will say that--again, I will go back--
and the way the question is phrased, no, but I want to be 
absolutely clear that agents of the FBI were to participate 
where they believe that the interrogations would be done 
according to the standards that we have set in the FBI.
    Senator Leahy. Were they told to anticipate that those 
standards would not be followed in CIA--
    Mr. Mueller. No. My understanding is that there are 
standards that have been established by others legally that may 
well be different from the FBI standards, and if that were the 
case and there were a departure from the FBI standards, we were 
not to participate.
    Senator Leahy. What others?
    Mr. Mueller. What others?
    Senator Leahy. You said that there are some interrogations 
that do not follow your standards. What others? By whom?
    Mr. Mueller. DOD and CIA.
    Senator Leahy. That is basically my question. So it is true 
the FBI agents are--
    Mr. Mueller. But my saying that, let me add, Senator, that 
that does not necessarily mean that those standards were not--
that those standards were unlawful. What I am saying is that 
they may not conform to what we--the standard that we use in 
conducting investigations in the FBI.
    Senator Leahy. Your standards are set out, and agents are 
instructed not to take steps that would compromise them in a 
criminal case; is that a fair statement?
    Mr. Mueller. I think that is part of it, yes. But also, I 
mean, for a variety of reasons, our standards relating to 
interviews and interrogations are based on our belief on what 
is effective, our belief on what is appropriate, our belief 
on--and part of the footing of that is, quite obviously, the 
fact that we would have to testify in court on standards of 
voluntariness and the like. So our standards may well be 
different than the standards applied by another entity in the 
United States.
    Senator Leahy. And have any of your agents encountered 
objectionable practices involving the treatment of prisoners in 
Iraq, Afghanistan or Guantanamo?
    Mr. Mueller. We have conducted investigation to determine 
whether or not any of our agents in Iraq were aware or was 
aware of the practices that we have seen in the media, 
practices between I believe October 1st and December 31st of 
2003, and we have interviewed each of the agents that 
conducted, may have conducted interviews in the Abu Ghraib 
Prison, and none of those witnessed abuses such as we have 
seen.
    Senator Leahy. Let me ask you this. Is the FBI conducting 
any investigations involving handling of prisoners in 
Guantanamo?
    Mr. Mueller. No.
    Senator Leahy. None?
    Mr. Mueller. We are not conducting any investigations into 
the handling--
    Senator Leahy. Have you conducted any?
    Mr. Mueller. No.
    Senator Leahy. And you are not doing any in Iraq?
    Mr. Mueller. We are not.
    Senator Leahy. How about Afghanistan?
    Mr. Mueller. No, not to my knowledge. We are not conducting 
investigations into the handling of prisoners in either of 
those three countries. My understanding is that there is a 
referral, there has been a referral to Justice by the CIA, 
which I think has been made public, of certain issues, but the 
investigation has been conducted by the CIA Inspector General.
    Senator Leahy. So if they refer a case to Justice, you do 
not get involved in an investigation? I mean does it sort of 
sit there in Justice or what?
    Mr. Mueller. No. I think if there are referrals and Justice 
believes that we are the appropriate investigating body, they 
would ask us to conduct an investigation.
    Senator Leahy. So even though they have had cases referred 
to them by the CIA, they have not set them on to you?
    Mr. Mueller. My understanding is the investigations had 
been conducted to date by the Inspector General's Office.
    Senator Leahy. The same New York Times article says the 
CIA's coercive interrogation techniques were authorized by a 
set of secret rules adopted by the administration after the 9/
11 attacks for the interrogation of high-level al Qaeda 
prisoners. The article states that these rules were endorsed by 
both the Justice Department and the CIA. Were you or anyone 
else at the FBI consulted about these rules?
    Mr. Mueller. I do not believe so.
    Senator Leahy. Did you or anyone else at the FBI endorse 
these rules?
    Mr. Mueller. No.
    Senator Leahy. You have no FBI investigations of military 
contractors regarding the handling of prisoners in any of the 
three countries I have talked about?
    Mr. Mueller. Not at this time.
    Senator Leahy. Have you had?
    Mr. Mueller. No.
    Senator Leahy. Do you have FBI at Guantanamo?
    Mr. Mueller. Yes.
    Senator Leahy. Afghanistan?
    Mr. Mueller. Yes.
    Senator Leahy. And Iraq?
    Mr. Mueller. Yes.
    Senator Leahy. Can you submit the information on that for 
the record?
    Mr. Mueller. In terms of numbers?
    Senator Leahy. Yes.
    Mr. Mueller. Yes. I would like to--not in open record, but 
I will absolutely submit it to the Committee, but we prefer to 
keep it not as part of the open record.
    Senator Leahy. Would you want to do it for the classified 
record?
    Mr. Mueller. Yes.
    Senator Leahy. I understand. We talked about the Trilogy 
Program, and we said that it has been updated, consolidated and 
so on. But we have spent in the 3 years since 9/11, $581 
million, which is over budget, and long delayed. The Attorney 
General told Congress the virtual case files are on schedule to 
be implemented by December of 2003. You said the same thing in 
July 2003 when you testified before us. In December the FBI 
told my staff it was delayed until summer. On March 23 of this 
year you told the Appropriations Subcommittee the FBI is still 
negotiating. Today you indicated the elements would be 
completed later this year. What elements and what do you mean 
by elements?
    Mr. Mueller. Let me go back, Senator. The contracts were 
entered into in the summer of 2001. We have had to undertake 
the modernization, given contracts were issued and entered into 
in 2001 prior to September 11th. There is an assertion that we 
have spent far more funds than were earlier anticipated, and 
that is true. The reason we have spent far more funds is 
because we have changed and adopted the program we need to put 
our information technology where it needs to be. We have 
completed, as Senator Hatch pointed out, a substantial portion 
of the Trilogy Project. We have put in more than 28,000 new 
computers. We have put in the local area networks, the wide 
area networks, the backdrop, the backbone of our system.
    One of the things we have done that was not contemplated 
when we entered into the Trilogy Project is, early on, 
migrating our databases from the old ATA base, which is the 
foundation of ACS to which you refer, migrating that data over 
to modernized databases so it can be searched by search 
engines. That had not been contemplated prior to September 
11th, and we have accomplished that.
    The upgrade of our operating systems, which was to be 
completed by October, was not completed by October. We had what 
I believe to be problems with the contractor in that regard, 
and we went back and we negotiated a difficult finalization of 
that contract, and that was concluded on April 20th. We are in 
negotiations with the last contractor on the last piece of this 
program, the Virtual Case File, and my hope and expectation is 
that that will be completed by the end of this year.
    But I do not believe, to the extent that you did say that 
we are not much better off today than we were before, that that 
is accurate. I do not believe that is accurate. I think we are 
much better off now than we were before.
    The last point I would make is that when we entered into 
the contracts for the Trilogy Project, it was on a 3-year 
timeframe. I had originally, after September 11th, asked to 
move it up so that we could move faster. We are at the end of 
that 3-year timeframe, so compared to what we anticipated, we 
are pretty much online. It was my effort, my hope, my 
expectation that I could move up that timeframe some. As it has 
turned out, I was unable to do so, but I do believe that when 
we are concluded this year, we will have the foundation for the 
cutting-edge technology for an organization our size.
    Senator Leahy. Thank you, Mr. Chairman. I appreciate your 
courtesy.
    Chairman Hatch. Thank you, Senator Leahy.
    We will turn to Senator Grassley.
    Senator Grassley. Director Mueller, I really appreciate 
your work that you and your field agents are doing in the fight 
against terrorism. I also would like to commend you for the 
changes that you are making at the Office of Professional 
Responsibility. My staff has been briefed on that. I may have a 
few little things to follow up in writing, but I wanted to 
acknowledge those changes.
    The first question deals with the progress that the FBI is 
making in general in terrorism financing, and specifically with 
the Saudi Arabian financial activity. I chaired a Finance 
hearing yesterday on this issue. My staff has been 
investigating the Riggs Bank situation, and the money trail I 
think is very alarming. It looks like there are groups and 
individuals that have pretty solid links to terrorism who got 
money from the Saudi Embassy accounts at Riggs. I am sure that 
the FBI agents on this case are working as hard as they can, 
but I worry about political pressure may be impeding. Three 
points I would like to address, and I would like to give all 
three before you answer.
    First, have you or senior FBI officials received any 
pressure or guidance from other agencies, including CIA, State 
Department or the White House to go easy on the case, and if 
you ever did, would you report that to Congress?
    Second, please tell us in a general sense, because I know 
when you are dealing with a specific case you cannot talk about 
that case, but what kind of activity or involvement in 
terrorism financing is the FBI seeing from Saudi nationals and 
Saudi officials?
    Third, what kind of coordination and effort is there from 
the FBI to dismantle al Qaeda financing as a whole as opposed 
to specific cases, especially in conjunction with the Treasury 
Department?
    Go ahead.
    Mr. Mueller. As to the first question on political 
pressure, at no point in time have we received pressure from 
any other entity in the Government not to pursue every lead 
where it takes us. We would reject any pressure. It would not 
happen. It would not deter us from seeking out any fact that we 
need to further our investigation.
    We have seen over a period of time Saudis, Saudi NGOs, NGOs 
that are headed by Saudis, contributing to terrorism. I think 
that is fairly well known over a period of time. We early on 
established a Terrorism Financing Operations Section that has 
been, I believe, very successful in integrating with, formerly, 
Customs, as well as with the Treasury Department, and 
undertaking a wide range of investigations into terrorist 
financing, and I might also say this is one of the areas in 
which we work exceptionally closely with the Agency and others, 
and we have been successful.
    Lastly, with regard to the Saudis, before I turn to al 
Qaeda, we have had very good cooperation from the Saudi 
Government over the last year. We have a fusion cell in Riyadh 
looking at terrorism financing, and that has augmented our 
capabilities to address this particular problem. Looking at the 
financing of al Qaeda overall, I do believe that our efforts to 
go into Afghanistan and remove Afghanistan as a sanctuary for 
al Qaeda has had tremendous benefits in terms of disrupting 
their capabilities to recruit, to train, but also disrupting 
their capabilities to organize the financing along the lines 
that they were able to organize it prior to September 11th. Al 
Qaeda is fragmented. That does not mean that there are not 
individuals in this world who are not still providing financing 
to al Qaeda, but it is more difficult for them. And the efforts 
of not just the FBI but the other agencies in the United 
States, as well as our counterparts overseas, has had a 
substantial direct impact on the funding of al Qaeda.
    Senator Grassley. In regard to your last point, because I 
ask in conjunction with the Treasury Department, has the 
Treasury Department been involved in those investigations?
    Mr. Mueller. Yes.
    Senator Grassley. As a conclusion on this point, today 
Senator Hatch and I, and Senator Leahy, and Senator Max Baucus, 
are sending you a letter asking to see Inspection Division 
reports on the FBI's legal attache in Saudi Arabia, and I look 
forward to seeing those reports. You do not have to comment on 
that now, but we are sending you that letter.
    I would also like to, on a second point, figure out why the 
FBI is going back in time and classifying some pretty basic 
information that is already in the public sector in regard to 
classification of information that we have received in Congress 
from a whistleblower, Sibel Edmonds. We have, for instance, a 
e-mail sent out by the Chairman Office last week saying that 
the FBI is classifying 2-year-old information the Committee got 
in two previous briefings. Ms. Edmonds worked for the FBI as a 
translator, and was fired after she reported problems as part 
of the Committee's legitimate oversight. We looked into that. 
So I am very alarmed.
    The e-mail I have is right here. I am very alarmed with the 
after-the-fact classification. On the one hand I think it is 
ludicrous because I understand that almost all of this 
information is in the public domain and has been very widely 
available. On the other hand, this classification is very 
serious because it seems like the FBI would be attempting to 
put a gag order on Congress. Frankly, it looks like an attempt 
to impede legitimate oversight of a serious problem at the FBI, 
and that makes it harder for the FBI's problems to get fixed. 
The so-called mosaic theory of classification can probably be 
applied to just about any information.
    I do not think this is really about national security. If 
it were, the FBI would have done this a very long time ago, and 
in fact, you would be trying to get information back that has 
already been given to us about Ms. Edmonds.
    The result of this retroactive classification will be a 
roadblock in front of Congressional oversight and the victims 
of 9/11 because I think that lawyers want to interview Ms. 
Edmonds. I think a better solution is for the FBI to face up to 
its problems with translation. I understand that there are tens 
of thousands of hours of untranslated material from this year 
alone, and that is just for Terrorism and Intelligence 
Committee. So I have two questions.
    First, who is the primary decision maker for 
classification? Would it be Justice Department lawyers or 
operational people at the FBI? The second part of this is, how 
is this classification supposed to have any credibility when it 
is 2 years after the fact and all the information, it seems to 
me, is in the public domain?
    Mr. Mueller. Senator, I understand your concern about this 
particular issue. My understanding is that the information was 
provided to Congress sometime ago openly, 2 years ago, almost 2 
years ago, and that there are other areas of information that 
have come out, that put together with that information, may 
bear on the national security, which is why that decision was 
taken. My understanding is it is a joint decision between the 
Bureau and the Department of Justice. I can assure you it is 
not in any way an effort to impede legitimate oversight 
inasmuch as the information has been provided to Congress some 
time back.
    I might also add in that context that as I have in each 
case of a whistleblower in the past, I have referred the matter 
over to the Inspector General, and the Inspector General is 
conducting an investigation into all of these allegations. It 
certainly is not an effort to in any way interfere with either 
Congress's or the Inspector General's investigation, and as I 
have in the past, if there are recommendations that come out of 
that investigation, I will look at them and for the most part, 
as I have in the past, I will adopt them.
    Senator Grassley. My last question deals with the Chinese 
spy case in Los Angeles. I am not asking you about criminal 
case though because I know you are restricted on that. Former 
Agent J.J. Smith recently pled guilty to what seems like a 
light charge. It does not look like he is going to get much 
jail time. There have been some comments in the media about how 
this looks like a double standard and that has concerned me 
because we have discussed that in previous open hearings of 
this Committee. But I would like to focus on something else 
separate from the criminal case, and I would ask two questions.
    First, can you tell me if any internal FBI misconduct 
allegations have been filed against current or former senior 
officials in Los Angeles or in headquarters relating to the 
Leung, how Leung was handled in other intelligence matters? And 
second, are these allegations being investigated by either the 
FBI or the Justice Department? I am asking this because I have 
received information that the FBI really did not property judge 
who was responsible for the problems of the double agent and 
who was to blame.
    Mr. Mueller. Two things. Immediately after this came to my 
attention, I asked for a quick review of individuals who are 
still in the chain of command in Los Angeles to determine 
whether or not I should take some action immediately. And there 
were, I believe, at least one if not more actions taken as a 
result of that review.
    At the same time though, I asked the Inspector General to 
conduct an investigation and the Inspector General has been 
conducting an investigation for probably a year now into the 
events of what happened out in Los Angeles, and I would await 
the conclusion of the Inspector General's report to determine 
what further steps should be taken.
    Chairman Hatch. Senator, your time is up.
    Senator Kohl.
    Senator Kohl. Director Mueller, we understand that the 
State Department and the FBI are active in providing security 
at the Summer Olympics, intended to be in Athens. We have heard 
many athletes expressing concerns about their safety, and it 
seems that there may be good reasons for them to be concerned. 
As you know, Greece is close to many interests hostile to the 
United States and the area, and Greece's borders, particularly 
those on the Mediterranean Sea are porous. These fears are only 
exacerbated by the numerous bombing attacks that have occurred 
in Athens over the past year, some of which took place while 
you were there in November.
    Given the situation and your knowledge of what is being 
done there in terms of security, what can you say to the 
American athletes who are concerned about their safety?
    Mr. Mueller. We are working with the Greek authorities. It 
is the responsibility of the Greek authorities to protect the 
Olympics. They are confident they have put into place the 
mechanisms to do so. We have been and will continue to work 
with the Greek authorities. We continue to monitor the progress 
with regard to the security of the Olympics. At this point in 
time, as I say, we continue to monitor it and see what progress 
is being made to assure that these Olympics are free from 
attack. I think it is too early for any dispositive judgment as 
to the substantial gaps in that security. To the extent that we 
have identified them over the last several months, 6 months or 
so, the Greek authorities are moving to fill those gaps, but as 
I say, we are continuing to monitor the situation there.
    Senator Kohl. Is your concern a high-level concern?
    Mr. Mueller. Yes.
    Senator Kohl. Do you think that there is substantial risk 
there?
    Mr. Mueller. No. When I say it is a high-level concern, I 
think all of us want to make these Olympics the safest possible 
Olympics, and I know the Greek authorities want to make these 
the safest possible Olympics. They are looking forward to 
having the Olympics go off without a hitch and not only 
ourselves, but a number of other countries are working with not 
only our ambassador, but ambassadors of other countries in 
Greece, to ensure that these can be the safest possible 
Olympics.
    And when I say ``high-level concern,'' it is a concern 
because all of us want to make these a safe Olympics and are 
willing to do what is necessary to make that happen.
    Senator Kohl. Is it safe to say that the level of security 
at these Olympics will be perhaps higher than have ever been 
seen in an Olympics before?
    Mr. Mueller. I think that is probably fair to say.
    Senator Kohl. Director Mueller, the last time we saw each 
other, we discussed a Terrorist Screening Center. I would like 
to say again how important it is to have one central watch list 
for terrorists to effectively protect against terrorist attacks 
and keep our law enforcement alert to known terrorists. Such a 
list should be available to border security personnel, State 
and local law enforcement and others who are charged with 
protecting our Nation.
    You said, in March, that you expected a terrorist watch 
list to be fully integrated by this summer. Can you give us an 
update on where that is.
    Mr. Mueller. It was fully integrated as of March 12th. 
There was one integrated list as of March 12th. The next step 
in the growth of the Terrorism Screening Center is to make that 
list accessible directly on-line from each of the agencies.
    Right now, every one of the agencies participating in the 
Terrorist Screening Center has communication to their 
particular fields, and the names come in, and then it is run 
against the list. By the end of this year, what we want to be 
able to do with appropriate security, quite obviously, is to 
have the centralized list, which we do have, accessible 
directly from the field, so that the field does not have to 
come in to their counterpart in the Terrorism Screening Center, 
but can go electronically right to the list and get the 
information that way, and that is the next step of the 
evolution of the Terrorist Screening Center.
    Senator Kohl. Can you assure us that the FBI does not use 
any of the abusive interrogation methods that we have been 
reading about in Iraq here in the United States?
    Mr. Mueller. Yes.
    Senator Kohl. Does the FBI have procedural rules governing 
the interrogation of prisoners captured here in the United 
States?
    Mr. Mueller. Yes.
    Senator Kohl. Since September 11th, we have been collecting 
more intelligence and terrorist-related investigations. 
Terrorist organizations operate in the shadows of our society 
and are difficult to detect even when our counterterrorism 
people have all of the information in front of them. Their job 
is virtually impossible when the information we do have is not 
translated in a timely manner. What are you doing at the FBI to 
develop a long-term solution whereby the FBI can attract 
adequate numbers of qualified translators without compromising 
security?
    Mr. Mueller. We have put into place Tiger Teams, as we call 
them, over the last year, year and a half, to bring on board, 
first, recruiting and then bring on board numbers of 
translators in the languages where we have been weak in the 
past. We are going to continue to do that and augment our 
capability by seeking to attract and then hire a number of the 
translators in these particularly Middle Eastern languages. We 
have more than tripled our numbers of analysts in some of the 
more important categories, such as Arabic. Where we had, on 
September 11th, 70 Arabic contract linguists and language 
specialists, we now are well over 200. Farsi, we had 24, and 
the last count I had was 55. Pashtu, we had one. We now have at 
least 10, if not more. Urdu, we had 6, and we are up to 21.
    And so we have enhanced our capability and the numbers of 
linguists, but we are still not where we need to go. We have 
put into place a network whereby cuts of intercepted 
conversations, for instance, can be pushed around the country 
to a language specialist that has a particular skill and that, 
in and of itself, will substantially enhance our ability to 
have our conversations, our intercepts translated.
    The one point I would make is we have had, as in all 
things, we have had to do a triage. We have had to prioritize, 
and so the priority, quite obviously, is terrorism. To the 
extent that we have FISA intercepts or a Title III intercept in 
any way relating to terrorism, that is the first priority, and 
those conversations, particularly if they relate to ongoing, 
perhaps, operations, are done within I would say 12 hours.
    There are other investigations where, because we do not 
have as many linguists as we would like, that it is not within 
12 hours, but we have investigations, for instance, going into 
financing of terrorist activity and a variety of terrorist 
groups, and it does not have the same immediacy to have that 
translated--maybe listened to, but not translated--with the 
same immediacy that we have with regard to an ongoing terrorism 
investigation, and so we have had to prioritize, and I expect 
we will have to continue to prioritize in the future. But we, 
along with the community, are working in a number of different 
ways to augment our capabilities.
    Senator Kohl. Director Mueller, the FBI has been heavily 
criticized since 9/11 for not connecting the dots and 
preventing those attacks. You have done much to reorganize the 
Bureau and to hope that those changes will better enable the 
Bureau to detect and disrupt plots. You almost completely 
remove the FBI from drug enforcement, and we are told that many 
smaller criminal investigations, such as bank robberies, are 
being left to State and local officials. So where do you see 
the FBI going from here? Do you plan to scale back on the 
Bureau's involvement in any other areas of criminal 
enforcement?
    Mr. Mueller. Let me, if I could, just point out one thing. 
We have not completely left the drug enforcement arena. We 
still have--and I can get you the figures--a number of agents 
who still are focused on enterprise drug investigations. We 
participate in OCDETF, Organized Crime Drug Enforcement Task 
Forces, around the country. We participate in HIDTA projects 
around the country. So we are still operating in the drug 
program and will continue to do so.
    What we have done is tried to eliminate the overlap between 
ourselves and DEA in addressing cartel cases, and by cartel 
cases I mean Mexican or Colombian cartel cases where there had 
been overlap in the past, and we are doing fewer stand-alone 
drug cases, and by fewer I mean cases relating to 
methamphetamine, Ecstasy, that do not perhaps relate to 
enterprises, but I would expect that we would still stay in the 
drug program for a long time to come.
    We have had to focus our resources in the bank robbery area 
and the small white-collar crime area, and we have done so. I 
have given latitude to Special Agents in Charge of the various 
divisions to identify particular priorities and to best 
maximize that Special-Agent-in-Charge's resources to address 
that priority. It may be in one city that bank robberies are a 
substantial problem. It may be a problem in Los Angeles and not 
Boston or Portland, Maine, or Oregon and not Miami. And 
certainly working with State and local on the priorities, we 
would work on a Bank Robbery Task Force for a period of time.
    And so what we have tried to do is be far more flexible in 
addressing the concerns of the local communities than perhaps 
we have done in the past, not driven by statistics, but driven 
by the threats in particular communities.
    As we go forward as a Bureau, I believe we should look for 
areas in which we are uniquely situated to address the threats 
of the future, and I look to 2010, threats of the future, 
international threats, terrorism, trafficking in persons, yes, 
trafficking in narcotics, transnational-international white-
collar frauds. And with our 52 field offices, with our coverage 
in the United States, we are uniquely able to work with our 
counterparts to address that kind of more likely threats in the 
future, and so I expect us to continue to maintain a strong 
presence at the local level, but be that intersection between 
the local level and the international threats that we are going 
to increasingly face as we go down this path.
    Chairman Hatch. Senator, your time is up.
    Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.
    Director Mueller, in the brief 10-minute time frame, I 
would like to ask you about two subjects--one, the Director of 
National Intelligence and, secondly, about the PATRIOT Act, 
starting with the issue of coordination of intelligence 
information. There are many of us, myself included, who still 
believe that there ought to be an overall Director of National 
Intelligence. I compliment you and others who have moved to 
have more coordination now than before, and I tried to get this 
as part of the legislation for the Secretary of Homeland 
Defense.
    If there is a judgment made to go to a Director of National 
Intelligence, do you think it would be better lodged in the CIA 
with the Secretary of Homeland Defense and the FBI or should 
there be a new office created, designated Director of National 
Intelligence, or is there some other way that you would 
recommend that it be done, if we get to the point of deciding 
that that has to be done?
    Mr. Mueller. I wrestled with this, and it is not the first 
time I have been asked about it. I think you start with some of 
the areas where I think we have made substantial strides. The 
Terrorist Threat Integration Center accomplishes for analysis, 
as opposed to collection, the integration and the all-source 
access to information relating to terrorism.
    Senator Specter. Director Mueller, I have only got 10 
minutes. If you are going to tell me why we do not need one, 
that is not my question. My question is, if we decide we do 
need one, what is the option you would recommend?
    Mr. Mueller. I am not certain I would recommend any of 
those options. I think, as I testified before the 9/11 
Commission, I think there are pluses and minuses in each of 
those options. I will tell you, if there is a decision to 
make--one of the reasons I do not have an opinion on a DNI is 
because I am not thoroughly familiar with all aspects of 
military intelligence versus CIA intelligence. I just have not 
been exposed to that.
    Senator Specter. Well, would you do this for the 
Subcommittee or for the Committee, at least for me. Would you 
think about it and give us your opinion? Because of all of 
those who have to make a judgment, none of us has as much 
knowledge as we would like to have, and I would say you are a 
high-level expert, and your opinion would be very, very 
weighty.
    Let me move on now to the PATRIOT Act and start by agreeing 
with you about the importance of tearing down the wall so that 
when information was obtained under the Foreign Intelligence 
Surveillance Act and could have been used for a criminal 
prosecution, the prohibition was not sound at all, and we did 
make that important change. And I know that has liberated you a 
great deal.
    I believe that legislation in this field is necessary. I 
was concerned that the act was adopted without hearings in this 
Committee and rather hurriedly on the floor of the United 
States Senate one Thursday night which I expressed at that 
time. And in order to give the leverage to law enforcement to 
be able to use the PATRIOT Act, there has to be confidence that 
civil liberties are being protected at the same time.
    And because I only have 10 minutes, I want to give you a 
more lengthy preamble than I would like to do. I ordinarily 
like to ask one question at a time, but I cannot do that in 10 
minutes.
    The provisions with respect to an order for books, records, 
papers, documents, et cetera, has been referred to as an 
administrative subpoena, and I am told that that does not 
require probable cause, and there has been understandably 
concern expressed about going after library books, although 
there has been some report that no effort has been made to do 
that, but just the potential is problemsome. But if the library 
books related to how to make a bomb by an individual who had 
other indicia of the appearances or evidence or probable cause 
for being a terrorist, I could understand that.
    Let me shift now to the delayed notice provisions, where 
the language is that if the Court has reason to believe, which 
is a different standard than probable cause, I would be 
interested in your views as to what the difference is. And on 
the delayed notice provision, there are five reasons for the 
delayed notice. Four of them appear to be specific and sound. 
The fifth is a catch-all ``otherwise seriously jeopardizing an 
investigation or unduly delaying a trial.'' Where I come to the 
question part, it is whether you can get along without that 
catch-all provision, which causes some serious concern.
    And coming back for just a moment to the order requiring 
the books, et cetera, the PATRIOT Act just says that there 
shall be a specification that the records concerned are sought 
to protect against international terrorism or clandestine 
intelligence activities. It does not have, within the PATRIOT 
Act itself, the language which is in the Foreign Intelligence 
Surveillance Act, where there is requirement of facts submitted 
by the applicant showing that there is probable cause to 
believe, and then it says, ``for the standards.''
    And the questions I have for you are, where you have an 
administrative subpoena, if, in fact, that is what it is for 
books, et cetera, where there is a law enforcement official 
looking for that information, could that individual not specify 
why the information is sought, which really comes to the level 
of probable cause. When we have had probable cause imposed upon 
the States in Mapp v. Ohio, a very different change for law 
enforcement, the necessity arose to educate police officers as 
to specifying why they wanted to go after a certain record or 
document or search.
    So the questions are, number one, if the FBI is looking for 
an order on books, records, is it too much to ask the agent to 
spell out why that is being sought, perhaps not to rise to the 
level of probable cause, but at least some reason to give it? 
And is there a different standard, under delayed notice, on 
reason to believe? And could you do without the catch-all on 
Item 5?
    Mr. Mueller. Let me go back. One comment you made is that 
the PATRIOT Act was rushed. I know this Committee had a hearing 
previously in which it was brought up that Patrick Fitzgerald, 
the U.S. attorney in New York, was quoted as saying people say 
the PATRIOT Act was rushed from his perspective, and he was the 
one that was handling the al Qaeda cases in New York, and he 
said the PATRIOT Act was not rushed. It was 10 years too late. 
And I just wanted to get that on the record that there is a 
belief that what the PATRIOT Act has done in breaking down the 
walls has been tremendously helpful to us.
    Senator Specter. Mr. Director, I believe with you that 
there is plenty of time to legislate, but there was plenty of 
time to have hearings before the PATRIOT Act went to the floor. 
We do not overdo the work week here in the United States 
Senate. So there is plenty of time to do it if we do it.
    Mr. Mueller. Going to the issue of the delayed notice 
first. I do believe that it is a lesser standard than probable 
cause because it is delayed if the Court finds reasonable 
cause, which is less than probable cause, I believe, and it is 
a lesser standard, but I think it is appropriate, when you are 
going before a judge and saying that, for this set of 
circumstances, we want to delay a notice for 30 days or 60 days 
or 90 days.
    Senator Specter. Why should there be a lesser standard?
    Mr. Mueller. You have it before a judge, and probable cause 
in that circumstance, it is not a search. It is a delay of a 
notice. And I do not believe that you need to go to the higher 
level where you are asking a judge just to delay notice for a 
30- or a 60- or a 90-day period, and I do believe--
    Senator Specter. How about going after the books?
    Mr. Mueller. In terms of going after books, I believe a 
standard of relevance is appropriate, so that the Court can 
look at the rationale, but not necessarily probable cause. We 
do not require, as you know probably far better than I do, that 
in a criminal context, a grand jury subpoena for the same 
materials requires a much lesser standard than probable cause. 
It is relevance to an investigation. I think that same standard 
should be applied when we are addressing terrorism.
    Senator Specter. But even that standard is not in the 
PATRIOT Act.
    Mr. Mueller. No, it is not. It is in the criminal code.
    Chairman Hatch. Senator, your time is up.
    Senator Feinstein?
    Senator Feinstein. Thank you very much, Mr. Chairman, and 
thank you for being here, Director Mueller. As I have said 
before, you have always been a straight-shooter and answered 
the questions directly, and I, for one, really appreciate that.
    I do want to, along the line of Senator Specter's 
questions, bring to your attention that on March 23rd, I wrote 
a letter to Attorney General Ashcroft and Director Tenet, and 
in that letter I indicated that I was increasingly concerned 
about the confrontational tone of discussions about the PATRIOT 
Act and the 16 provisions among the 156 which are set to expire 
in 2005. And I said it was my hope that we can carefully 
consider and thoroughly evaluate these in a timely fashion. And 
I wrote to him asking for his assistance that he ensures a 
critical and comprehensive review of the implementation, value 
and importance of each of the 16 provisions. I received no 
response.
    I wrote a second letter the next month on April 28th with a 
copy of my prior letter. I received no response to that. Now, I 
am a supporter of the PATRIOT Act, but if I cannot get from the 
Department of Justice what I ask for with respect to a careful 
and comprehensive evaluation of each of those provisions, I 
will be hard pressed not to support the reauthorization, and I 
just want to let you know that.
    And I will give you, before you leave today, copies of 
those letters. Perhaps you can use your influence and see that 
I get a response.
    Let me put on my Intelligence Committee hat for a moment. 
In 2002, we passed, in the intelligence authorization bill, a 
section known as 321, and that essentially required the DCI, in 
its capacity as the head of the intelligence community, to 
develop standards and qualifications for those engaged in 
intelligence activities at the 15 departments.
    And the report that we published went on to say, ``The 
Committee,'' the Intelligence Committee, ``has become concerned 
that, particularly in the area of analysis, elements of the 
intelligence community are denominating individuals as analysts 
or intelligence analysts without adherence to a meaningful and 
common definition of the word. Since September 11th, the 
Committee has been struck by the ever-growing number of 
individuals who are intelligence analysts, particularly in the 
area of terrorism. It is the Committee's intention to require 
the Director,'' that is the DCI, ``to ensure that individuals 
performing analytic or other intelligence functions meet clear 
and rational minimum standards for performing those jobs.''
    My first question is has the DCI provided you with the 
communitywide standards and practices required by law?
    Mr. Mueller. I know we are putting--I am not certain of 
exactly the way the import of that law has been transmitted to 
each of the agencies that fall within the DCI.
    Senator Feinstein. I am talking about you, Director 
Mueller.
    Mr. Mueller. Yes.
    Senator Feinstein. It seems to me these standards should go 
Director-to-Director not through lower echelons. My question, 
and the intelligence authorization bill is very specific, have 
you been provided with communitywide standards for the hiring 
of intelligence analysts?
    Mr. Mueller. I do not believe so. We have established our 
own, in conjunction with the rest of the intelligence 
community.
    Senator Feinstein. So you would not know how many FBI 
analysts meet those standards.
    Mr. Mueller. We have been doing an assessment. I would have 
to get back to you on that.
    Senator Feinstein. I would appreciate that, if I may.
    Mr. Mueller. Yes.
    Senator Feinstein. I want to just follow up on a couple of 
things. What responsibility does an FBI agent serving in Iraq, 
Afghanistan or, for that matter, any other place have to report 
conduct such as we have seen at the prisons, and it is not the 
only one prison, but in other prisons, to report conduct that 
may violate United States laws?
    Mr. Mueller. It is to report it and to report it up the 
chain.
    Senator Feinstein. Have you received any reports?
    Mr. Mueller. From Abu Ghraib, no.
    Senator Feinstein. From any other prison or detention or 
interrogation facility?
    Mr. Mueller. We have, upon occasion, seen an area where we 
may disagree with the handling of a particular interview, and 
where we have, my understanding is--and we are still 
investigating--where we have seen that, we have brought it to 
the attention of the authorities who are responsible for that 
particular individual.
    Senator Feinstein. You mentioned in response to Senator 
Leahy that you had questions about the effectiveness of 
coercive interrogation. Can you explain that a little bit 
further?
    Mr. Mueller. I think there may be various bodies of opinion 
as to what is the most effective way to obtain information. 
There are certainly differing points of views. One of the 
points of views in the FBI is that developing a rapport may be 
as effective or more effective than other ways. That does not 
necessarily mean that our particular view, in a particular 
circumstance, is right. But as I expressed to Senator Leahy, in 
the course of FBI interviews, there are standards that FBI 
agents are to apply.
    Senator Feinstein. In April of this year--
    Mr. Mueller. May I add one other thing, also? And that is 
one of the things I do think it is important to understand is 
that our standards are developed with the understanding that, 
for the most part over the years, we have--and will continue--
to conduct interviews within the United States--within the 
United States--under the Constitution, understanding that our 
mission is somewhat different than the mission of the 
Department of Defense and the CIA overseas. And so our 
standards we adhere to within the United States because that is 
our principal mission.
    Now, in the case where we also are overseas, we ask our 
agents to adhere to exactly the same standards, and there have 
been no waivers of those standards.
    Senator Feinstein. Well, let me just say this: I admire you 
for taking the position that your agents are not going to 
participate where those standards are not present. So I thank 
you for that.
    In April of this year, the FBI issued an intelligence 
report entitled ``Threat Assessment, Los Angeles.'' I have 
reviewed the report carefully, and while the details are 
classified and I will not go into them, I wrote to you earlier 
this month to express my concern, saying in a letter dated May 
3rd that, although titled ``Threat Assessment,'' the report 
contains little intelligence analysis; rather, it is a 
combination of older intelligence data and random comments on 
ongoing investigations.
    In essence--and this is a problem, I think, with your 
agency--rather than analyze the implications of the data you 
have, the report counts the number of open investigations. In 
my view, counting investigations is a valuable law enforcement 
tool, but it is not a substitute for analysis.
    How is the FBI going to address this problem and acquire 
the skills that are necessary to do real intelligence analysis? 
Wouldn't an assessment of the threat to Los Angeles be 
primarily based on foreign intelligence collected overseas with 
the information from your investigations being added data?
    Mr. Mueller. I think that is a valid criticism, and too 
often in the past I think what we have done is look at the 
number of cases, and that does not substitute for the analysis 
that you describe. And I would think a thorough analysis would 
include not only information from overseas and not only the 
number of cases we have, but also input from our sources in 
that area, whatever sources contribute to that, and give an 
overall assessment.
    I think you will be seeing one relatively shortly, and 
throughout the Bureau, we are gaining that capability not only 
by hiring analysts who have that capability, but through the 
College of Analytical Studies and from our intersection with 
both TTIC, as well as the CIA, as well as also the NSA.
    We have put out a number of, I think, very good 
assessments. The assessment we did on the national threat 
domestically over the last year I think has been a top-quality 
product. And as we continue to grow our capabilities there, I 
think you will see the quality of the product will be much 
improved as we gain the capacity.
    I will tell you that we have put in each of our offices a 
field intelligence group with reports officers, with persons in 
those intelligence groups who understand how to put together an 
assessment. That is not a capability that we have had in the 
past, and we are building it. We are not where we want to be, 
but we are building it and we are building it as fast as we 
can.
    Chairman Hatch. Senator, your time is up.
    Senator Feinstein. Thank you. Thank you very much.
    Chairman Hatch. Senator DeWine?
    Senator DeWine. Thank you, Mr. Chairman.
    Mr. Director, thank you for joining us. I know that you 
have expanded the Trilogy information technology program as a 
result of the Webster report on Hanssen, September 11th, and 
other issues. As a result, the FBI was allowed to reprogram 
certain funds to address this expanded focus. Let me ask you a 
couple specific questions.
    After redirecting these funds, do you currently have enough 
money to complete Trilogy? What will be the total cost of 
Trilogy? How much money do you have left to spend on the 
program? And when will Trilogy be completed?
    Mr. Mueller. I am not certain I have answers today on each 
one of those questions. I believe we do have sufficient money. 
Let me check one thing.
    [Pause.]
    Mr. Mueller. I believe the total cost, as I pointed out 
before--but we have had some enhancements that we have included 
in that--will be close to $560 million, and the last piece of 
Trilogy, that is, the Virtual Case File, my expectation is that 
it will be in by the end of the year.
    Senator DeWine. End of this year?
    Mr. Mueller. This year.
    Senator DeWine. I understand that the FBI commissioned the 
National Academy of Science to evaluate the Trilogy plan. They 
were fairly critical. However, I also understand that many of 
these criticisms are for issues the FBI may have already 
addressed. The NAS does not dispute that possibility, but 
indicates they have been unable to determine the FBI's progress 
because the FBI has not been forthcoming on these issues. That 
is what they say.
    Can you address these concerns?
    Mr. Mueller. Well, I do think we have been forthcoming on 
the issues. One of the things about the report is that it was 
done 6 months ago, and there have been substantial changes in 
terms of the development of an enterprise architecture, the 
appointment of a new chief information officer, different 
mechanisms to assure higher-level input into the project, all 
of which were recommendations that were in the report as it was 
drafted 6 months ago.
    The panel is coming back together to evaluate the progress 
that has been made since they last drafted the report, and my 
expectation is that there will be acknowledgment of that in the 
next several weeks, in a supplemental or an addendum to the 
report.
    Senator DeWine. So we should wait for that?
    Mr. Mueller. Yes, sir. On the other hand, we would be happy 
to brief, as we have others, where we are on our information 
technology, the good and the bad. And there have been some 
tremendous bright spots; there have been a number of--a 
relatively few bumps in the road, but there have been bumps in 
the road.
    Senator DeWine. You and I have discussed that before. I 
appreciate that.
    Let me switch gears here a minute. Once September 11th 
happened, the FBI, as you have testified in front of this 
Committee on several occasions in the past, fundamentally 
shifted gears, and you moved from a reactive agency to a 
proactive agency, and you moved from an agency that dealt with 
many, many different things to an agency that has focused to a 
great extent today on terrorism.
    Every time you are here, Mr. Director, I ask you this 
question, and I am going to keep asking you this question 
because I think it is important for the American people to 
understand the answer. And I suspect the answer will continue 
to change a little bit.
    What is it that the FBI is not doing today that you were 
doing in the past? What is not getting done now because of this 
change in direction? You are doing more. You are doing more in 
the area of terrorism, fundamentally more. You do have some 
more resources that we have given you.
    Mr. Mueller. Yes.
    Senator DeWine. But that means some things still are not 
getting done or are not getting done as well. Candidly, tell us 
about that.
    Mr. Mueller. We are not doing--
    Senator DeWine. The American people need to know that.
    Mr. Mueller. Yes. We are not doing as many drug cases. I 
think that is--to the extent that there is some impact, I think 
it is probably more in middle America because of the 
predominance of methamphetamine as a drug of abuse. And we have 
better coverage in most of middle America than the Drug 
Enforcement Administration does, and so that has fallen to 
State and local law enforcement. So we are not doing as many 
drug cases. We are not doing as many cartel cases. But I do 
believe that the slack on the cartel cases has been picked up 
principally by DEA.
    We are not doing as many bank robberies. We are not doing 
the smaller white-collar criminal cases, the bank embezzlements 
under a couple hundred thousand. I hate to say it here, but we 
are not doing as many smaller white-collar crime cases as we 
were doing before. We are relying more--and when I say ``we,'' 
I would say law enforcement is relying more on the Inspectors 
General to investigate fraud and abuse against the Government.
    Those are some of the areas in which we are doing far less 
of than we had done in the past. But as we continue to stress 
that our principal priority is addressing terrorism, Congress 
and the administration have given us additional resources in 
terms of agents and analysts in counterterrorism that have then 
freed up agents who had been redirected from those other 
programs to go back to some of these criminal programs.
    But in the future, my belief is our three principal 
priorities--counterterrorism, counterintelligence, and cyber--
will continue to draw additional resources from some of the 
other traditional areas that we have handled.
    Senator DeWine. And the reality is that what the FBI always 
brought to the table was the ability to handle the complex 
case, the long-term investigations. And when you hand those 
off, by necessity now, to local law enforcement, that means 
somebody has got to pick up long-term investigations. And 
sometimes that is difficult, frankly, for local law enforcement 
to do, and that is just a fact.
    Mr. Mueller. It is, and--
    Senator DeWine. That is a fact. That is where we are.
    Mr. Mueller. It is. One of the things I stress to each of 
the Special Agents in Charge is that when you sit down with 
your local police chief, there may be a gang problem, there may 
be a particular drug problem, and there is no reason why we 
can't bring the capabilities we have to bear on that problem 
for a period of time until it is addressed. But we should not 
stay in task forces beyond the time that we can contribute. And 
we ought to be more flexible in addressing those particular 
needs of State and local law enforcement with some 
particularity as opposed to trying to do it with a broad brush.
    Senator DeWine. Let me move to one final question, and that 
has to do with the whole FISA process and changes that have 
taken place there. How are we doing there? Do we need to make 
any change in the FISA law, in your opinion? How are we doing? 
And do we need to make any changes?
    Mr. Mueller. Well, there is the Senator Kyl--I think it is 
the Kyl-Schumer statute that is still pending that I think 
would be of substantial benefit were we to have that passed. I 
would have to get back to you on that. I know that lone 
terrorist is one of the issues--
    Chairman Hatch. That is the lone wolf--
    Mr. Mueller. That is the lone-wolf piece of legislation.
    Senator DeWine. Right, and we hope to give that to you.
    Mr. Mueller. And I have to get back to you, again, and look 
at that. It is not right on my mind at this point.
    Senator DeWine. Could you take that then as something that 
you will get back to us in writing on?
    Mr. Mueller. Absolutely.
    Senator DeWine. We would appreciate that.
    Mr. Mueller. If you can excuse me just a second.
    [Pause.]
    Mr. Mueller. Specifically with the FISA statute, that is 
right. I have to get back to you on that.
    Senator DeWine. What is your analysis, Mr. Director, of how 
FISA is working mechanically now?
    Mr. Mueller. It is working--
    Senator DeWine. The flow, because I do not want to in an 
open hearing get into too many details. But--
    Mr. Mueller. Let me just say there are two components to 
it, and that--
    Senator DeWine. I have some concerns.
    Mr. Mueller. We still have concerns, and we are addressing 
it with the Department of Justice. And I can tell you one 
thing: the quality of work is as it has been in the past. We 
have had to prioritize in ways that we have not in the past. 
And we have had to add additional persons, and part of the 
challenge is both from information technology as well as the 
training and augmentation of the FISA staff, whether it would 
be in the FBI or in DOJ. We have recently embarked on a task 
force concept that I think will do much to ameliorate the 
problem. But there is still frustration out there in the field 
in certain areas where, because we have had to prioritize, we 
cannot get to certain requests for FISAs as fast as perhaps we 
would have in the past.
    Senator DeWine. My time is almost over. Let me just say 
that that is something that, Mr. Chairman, I think this 
Committee should spend a little more time looking at. When the 
Director of the FBI comes into this hearing--and we are in a 
open hearing and cannot go into any great detail. But it is 
clear there is a frustration level here with the Director, and 
it is clear there is a frustration level with people in the 
field. And when he is talking about making priorities, that 
tells me once again that things are not getting done out there. 
And we are going to be looking up, Mr. Chairman, in a year or 
two from now, and we are going to be looking back at things 
that did not get done because of some mechanical problems out 
there that should have been fixed. And something is wrong out 
there.
    Chairman Hatch. I agree.
    Senator DeWine. There is just a problem here.
    Chairman Hatch. Senator, I think that is a good point.
    Senator Feingold?

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman.
    Director Mueller, I appreciate working with you, I enjoy 
working with you, and I admire the challenges you have and the 
way you are meeting them. So it does pain me to hear you using 
the same approach that almost everyone else in the 
administration uses to defend USA PATRIOT Act. I have heard the 
President do it; I heard the Attorney General do it.
    You say the bill has to be reenacted in exactly the same 
form. Then you cite a bunch of provisions, Mr. Mueller, that 
nobody objects to. It is a bait-and-switch. Nobody is against 
taking down the wall. Nobody wants to put the wall back up. 
Nobody does. I never did. When I voted against the bill, I 
never suggested--in fact, that was one of the provisions I was 
enthusiastic about.
    Then you cite the idea on the roving wiretaps. Everybody in 
this Congress wants us to be able to get at the other 
telephones. No one suggests that you should only be able to get 
at one telephone in an era of cell phones. It is simply not 
anything that anyone has proposed that I know of. Nobody 
opposed the idea of nationwide search warrants, the sort of 
thing you mention.
    And here is the problem. The problem is that you suggest to 
the American people that somehow these provisions are in 
dispute, that you, I am sure, properly have indicated have been 
helpful. But the provisions that we are concerned about--and 
Senator Specter actually mentioned some of them--do have 
problems with the drafting.
    Now, you may be right that some of these provisions took 10 
years to get them to us, but I assure you that our part in the 
process, which I think is still important, was extremely 
rushed, and the language was not carefully reviewed.
    For example, you take the sneak-and-peek searches. Senator 
Specter mentioned this. The PATRIOT Act could allow delayed 
notice of a search for potentially an indefinite period of 
time. In other words, instead of a judicial review and 
monitoring on a 7-day basis to make sure that it is still 
needed, it is indefinite. Now, that is not something that you 
have shown any evidence to suggest is necessary in order to 
protect us from terrorism.
    It also has the catch-all provision that Senator Specter 
mentioned that allows delayed notice of a search if it would 
``seriously jeopardize an investigation or unduly delay a 
trial.'' Well, that is just too broad without a specific 
connection to terrorism.
    So the point here that I want to make--and the same goes 
for Section 215. You started talking about a relevance standard 
regarding the library records. There is no relevance standard 
for Section 215. It simply says if you, the FBI, say you seek 
the information in connection with the investigation, the judge 
is required to give you the order. And I have heard the 
President and the Attorney General all suggest that somehow 
there is genuine judicial review there.
    So the point here is that I don't think you even really 
want the USA PATRIOT Act passed exactly intact again. There is 
a necessary process that many members of this Committee are 
engaged in on both sides of the aisle--Senator Craig, Senator 
Specter, Senator Durbin, myself, and others--where we want to 
fix the USA PATRIOT Act. And the problem is the approach you 
are taking enhances the view of many people in this country 
that you are not trying to fix it, that you are just defending 
it at all costs. And I think that is a mistake. I think that is 
a mistake for the Constitution. I think that is a mistake for 
what you are trying to do.
    Let's give the American people an opportunity to believe 
that you and this administration have a concern about some 
problems with the powers, and let's fix them so there can be 
confidence as we all go forward to fight terrorism.
    In that spirit, I thought until today--and I certainly hope 
after your answer I feel again--that you believe there is a 
need for dialogue about these issues. I was pleased when you 
agreed to speak apparently at an ACLU conference about the 
PATRIOT Act. Earlier this week, William Safire wrote a column 
about his concerns with data mining and made a point about 
balancing security with liberty that I believe also applies to 
the debate in the PATRIOT Act. He warned that, ``In obtaining 
actionable anti-terror intelligence, there is a connection 
between, one, today's concern for protecting a prisoner's right 
to humane treatment and, two, tomorrow's concern about 
protecting a free people's right to keep the government from 
poking into the most intimate details of their lives. Must we 
wait until intrusive general searches mushroom into scandal, 
weakening our ability to collect information that saves 
lives?''
    So, Mr. Director, do the American people have to wait until 
a scandal occurs? Or wouldn't you agree that the administration 
should be taking concrete steps now to address the legitimate 
concerns that have been raised on both sides of the aisle about 
the language of the PATRIOT Act? And are you willing to sit 
down with a group of us who are cosponsors of the SAFE Act to 
talk about it?
    Mr. Mueller. Well, Senator, you started off by saying that 
the roving part of the statute is not at issue, but part of the 
SAFE Act would modify that part.
    Senator Feingold. I didn't say that, Mr. Director. I said 
that the issue that you brought up of being able to get at 
multiple telephones is not at issue.
    Mr. Mueller. Okay.
    Senator Feingold. So this is what this is all about. You 
cannot just say that making one criticism of one part of the 
provision means that we think the whole thing should be thrown 
out. That is not our position. That is not what we are trying 
to do. We want to fix it, Mr. Director.
    Mr. Mueller. And I would acknowledge that a debate is 
appropriate. I would be happy to sit down with you or any 
Senator here to discuss what changes are appropriate. But what 
my concern is about is the heart of the PATRIOT Act. The heart 
of the PATRIOT Act. And I look at some of the modifications in 
the SAFE Act, and I would disagree with you and I disagree 
adamantly in terms of taking out the last provision, (e), where 
the judge--you call it sneak-and-peek, but delayed 
notification, where a judge can delay notification because, as 
it is in the PATRIOT Act, it would seriously jeopardize an 
investigation. And for most times in which this has been 
approved previously by judges, it has been under that standard 
because that is what most concerns us.
    I am happy for the debate. I am glad to sit down with you 
or any of the other Senators to debate the provisions. But in 
my mind, what has not been acknowledged--and I wish it were 
acknowledged--is that the PATRIOT Act has made us safer as a 
whole.
    Senator Feingold. I want to say to you that I have never 
said that certain provisions of the PATRIOT Act don't make us 
safer, and that is not the debate. I only raised in my 
opposition to it a handful of provisions that I think are 
terribly important. But let's just agree that there are many 
provisions, all the way from being able to get voice mails 
because you could get the regular conversations of people, the 
border guards for Canada. That is not helpful to the debate in 
our country to suggest that those things are not important.
    What I think you just did is helpful. Let's get down to the 
actual language. Is there a way in which we could both agree on 
that language, maybe make it tighter and make it less of a 
catch-all that would still address the concerns you have? And I 
do appreciate the fact that you are willing to meet with us and 
talk about those.
    Let me switch to the questions that the Ranking Member 
asked a bit about Iraq. Could you please tell us where the 
agents and translators and other employees were assigned before 
they were sent to Iraq? Were they working here on stateside 
issues relating to terrorism, or were they pulled off of active 
investigations or diverted from assisting in other matters?
    Mr. Mueller. They will have come from offices around the 
country.
    Senator Feingold. They were from here?
    Mr. Mueller. From the United States.
    Senator Feingold. Were they already working on terrorism-
related issues?
    Mr. Mueller. Some of them were. Some of them may not have 
been.
    Senator Feingold. Well, the President said, correctly, that 
the fight against terrorism is not a war against Islam or the 
Arab world, and I appreciate your references to this today. I 
feel very strongly that the message should be sent repeatedly 
to the world as well as to Americans here at home. I am 
concerned that there are still some in this country who have 
misinterpreted this fight against terrorism and this conflict 
in Iraq as a war against Muslims or Arabs.
    Last week, the American-Arab Anti-Discrimination Committee 
sent you a letter asking you to issue a public statement to 
quell the public fears about hate crimes against Arab and 
Muslim Americans in light of the recent events in Iraq. Mr. 
Director, as you know, protecting civil rights is one of the 
FBI's top priorities. What can you say today to the public to 
remind them that we are not engaged in a war against Islam or 
the Arab people? And what you say to reassure Arab and Muslim 
Americans that the FBI is, of course, committed to protecting 
their civil rights?
    Mr. Mueller. Well, as I said at the outset, the war on 
terror in the United States has to be undertaken by all of us, 
and for the most part, it requires us to be alert, vigilant to 
persons in our communities that might want to either support or 
undertake terrorist acts. And all of us together have to 
understand the responsibility, and the Muslim American and the 
Arab American communities have understood that and work closely 
with us.
    Each one of our SACs, Special Agents in Charge, has gone 
out since September 11th and developed, I think, good, close 
working relationships with members of these communities, and we 
will continue to do so. It is tremendously important.
    On the other side of the line is the assaults that have 
occurred on members of the Arab American and Muslim American 
community that are especially heinous in the light of what 
happened on September 11th, and since September 11th, we have 
initiated 532 hate crime investigations where the victims were 
either Arab, Muslim, or Sikh. And out of those investigations, 
Federal charges have been brought against 18 subjects and local 
charges against 178 individuals.
    So, on the one hand, we appreciate and we thank and hope to 
continue to work with the members of the Muslim American and 
Arab American communities who, as I have always said, are as 
patriotic if not more patriotic than most perhaps in this room.
    And, on the other hand, to the extent that there are those 
who don't see that, don't understand it, and undertake hate 
crimes, we will be there, we will be investigating, and charges 
will be brought, and you will be doing time in jail.
    Chairman Hatch. Senator, your time is up.
    Senator Feingold. Thank you, Mr. Chairman.
    Chairman Hatch. But just to clarify before I turn to 
Senator Cornyn, 16 provisions of the PATRIOT Act are due to 
expire on December 31, 2005. Among the provisions that are 
subject to expiration are Sections 201 and 202, which add 
terrorist offenses and computer fraud or abuse as predicates to 
obtaining wiretaps; Section 203 and 218, which enable law 
enforcement to share counterintelligence information with the 
intelligence community; Section 206, which permits roving 
wiretaps; Section 209, which permits law enforcement officials 
to obtain voice mail through a search warrant rather than a 
wiretap; Section 220, which authorizes nationwide issuances of 
search warrants for wire or electronic communications and 
electronic storage and others.
    If these provisions expire--and I am not saying the 
distinguished Senator from Wisconsin has been against all of 
these provisions--
    Senator Feingold. Mr. Chairman, that is simply untrue.
    Chairman Hatch. I said I am not saying that you have said 
that you are against these provisions, all of these provisions.
    Senator Feingold. I just really--
    Chairman Hatch. What did I say--
    Senator Feingold. Mr. Chairman, I want to be clear that I 
have not taken the position that all of these provisions should 
be--
    Chairman Hatch. That is what I just got through saying, 
that you are not against all of these provisions, and that is 
what I thought I made clear. But you have been against some of 
them. And the critics have been against--I am just pointing out 
16 very important provisions are going to expire, and that is 
all I wanted to point out. I find no fault with you wanting to 
have a dialogue and criticize. In fact, I do think we are going 
to have to have a hearing on the SAFE Act so that you can get 
that out in the open, which you would like to do, and, of 
course, have our law enforcement people tell us whether it is 
doable the way the SAFE Act wants it done or not doable the way 
the SAFE Act wants it done.
    But one other thing. Anybody who thinks that the PATRIOT 
Act was done in haste didn't sit through the 18-hour days for 2 
weeks, and years before, because it was the Hatch-Dole 
Antiterrorism and Effective Death Penalty Act where we debated 
some of those provisions before and could not get them in. I 
mean, this has been going on for years on this Committee, not 
just the approximately 18 days that it took day and night--you 
know, 18-hour days to do the PATRIOT Act. Those provisions we 
have debated for years, ever since I have been on this 
Committee. So it is not something that was not well thought out 
or was not thought through. And the one thing that I think has 
to be said is that in the five hearings that we have held on 
this Committee so far, there has not been one--not one--
effective criticism. The Senator from California made that 
point.
    And, you know, we hear a lot of screaming in the media and 
a lot of criticism, but not one that has shown one misuse of 
the PATRIOT Act or one abuse of the PATRIOT Act. And I think 
that needs to be said.
    Did you want to say something?
    Senator Leahy. Mr. Chairman, I would simply make this note 
taken from a somewhat different view. I was there when the 
PATRIOT Act--
    Chairman Hatch. So was I.
    Senator Leahy. --was written, and I recall the first draft 
that came up from the Attorney General. You and others 
suggested we pass it that day. Some of us suggested we read it.
    Chairman Hatch. I don't think I suggested that we pass it 
that day. That is not true.
    Senator Leahy. We will let the record--
    Chairman Hatch. We worked the full time with your staff, 
and you know it.
    Senator Leahy. But be that as it may, after we read it, a 
number of changes were made to it by both Republicans and 
Democrats.
    The point is that one of the major things put in it was the 
provision that has been referred to here, the sunset provision 
for December 31, 2005. This provision was authored by then-
Republican Majority Leader Dick Armey of the House and myself. 
Now, we are not normally seen as ideological soul mates, but we 
authored it because these provisions were extensive and new, 
and we assumed that there would be real oversight on them. Part 
of the frustration with the Department of Justice is that a 
number of Senators on this Committee, both Republicans and 
Democrats, have written a number of letters about how some of 
those provisions were used--written to the Attorney General--
and yet it does not respond or responds inadequately. I have 
stated before I think there is some huge room down at the 
Department of Justice where all these letters go.
    But the reason they are there is to have real oversight. It 
is not a question of finding criticism. If you can't even 
answer the questions that were asked, nobody knows whether 
there is anything there to criticize or not, whether it is on 
FISA or anything else. Congressman Armey and I have written a 
letter jointly on the same question. He and I may or may not 
agree on every part of it. Senator Craig and I have written on 
this. We may not agree on every part of it whether it should go 
forward or not. We do not want to see ourselves in a Ruby 
Ridge-type situation. We do not want to see ourselves in any 
kind of a situation where we do not know the answers.
    That is why the provisions are in there. That is why they 
will not be renewed, unless and until there is real oversight, 
which means, among other things, having the AG actually answer 
the questions.
    Chairman Hatch. Before I turn to Senator Cornyn, let me 
just make the record clear, because in the FBI's report to the 
9/11 Commission, it indicates that a number of outside entities 
and individuals have studied the FBI's operations since 
September 11, 2001, and they have found no indication that the 
FBI has conducted operations with less than full regard for 
civil liberties. None.
    For example, the DOJ Inspector General has issued three 
consecutive reports indicating that his office had received no 
complaints for each 6-month period alleging a misconduct by DOJ 
employees related to the use of any substantive provision of 
the USA PATRIOT Act.
    Now, all I am saying is we are having an effective debate 
on this Committee. We are holding hearings. We are giving 
people from the left to the right an opportunity to criticize. 
To date, I have not heard one substantive criticism other than 
some would like to change one or more aspects of the PATRIOT 
Act.
    I would suggest to everybody, listen to the Director of the 
FBI who has to live with those provisions and who has to 
protect us, along with his organization of 28,000 people. And I 
think if you do, we will have very few changes in the PATRIOT 
Act. But that does not mean we cannot make it better. If we 
can, I am going to do everything I can to do it.
    Senator Cornyn?

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Thank you, Mr. Chairman.
    Director Mueller, thank you, and I admire you and the great 
work you are doing at the FBI. Of course, the debate we are 
having here now is one that we have had since the beginning of 
this country, the proper balance between security and liberty. 
And I think it is good that we have the debate. This is the 
right place to have it. But you shouldn't not have a debate in 
the FBI about executing the laws that are passed by Congress, 
and I appreciate the diligence with which the FBI is executing 
those laws and making us safer.
    But I do take a different view than Senator Feingold 
expressed. I admire his sincerity and his conviction and his 
consistency, but I simply disagree. I think I for one will 
support an effort to strike the sunset provision in the PATRIOT 
Act because I think it ought to be made permanent, because I 
agree with you that it has made America safer.
    But what I worry about is not people in Congress or 
elsewhere making good decisions about that balance between 
security and liberty based on good information or the facts. I 
worry about the facts being misrepresented or people being 
scared into making emotional decisions about what the PATRIOT 
Act does or does not do. And what I am referring to 
specifically is a campaign that has resulted in, I believe it 
is 287 different cities, city councils, municipal governments 
who have passed resolutions opposing--maybe ``condemning'' is 
too strong a word, but opposing the PATRIOT Act, including 
three in my State.
    Then I happened to receive a solicitation for funds from 
the American Civil Liberties Union. I am not sure exactly how 
they got my address, but I did, and the primary thrust of that 
solicitation was that I needed to send the ACLU money to 
protect the country, protect myself against the Government's 
use of the PATRIOT Act to somehow strip me of my civil 
liberties.
    Of course, scare tactics are common. It is a way to 
motivate people to act. But it is not honest; it is not 
appropriate. And I think that the PATRIOT Act has made America 
safer.
    I am amazed that we are having this debate, but, again, the 
debate is good. But after the 9/11 Commission hearings where 
you and the Attorney General and others talked about the 
importance of the PATRIOT Act's elimination or at least 
bringing down the wall that separated the law enforcement and 
intelligence-gathering agencies from information sharing and 
how important that has been. And it is amazing how you can see 
the public rhetoric and the public opinion kind of turn on a 
dime. It was as a result of that hearing which I think educated 
the American people about the good things the PATRIOT Act has 
done to make us safer. Indeed, I guess the best evidence of 
that is we have not, thank God, had another terrorist attack on 
our own soil since 9/11.
    But let me ask you specifically about two things. One has 
to do with the material support provision of the PATRIOT Act. 
As you know, the Ninth Circuit has upheld a facial challenge to 
that provision of the PATRIOT Act, and other courts, of course, 
have rejected such constitutional challenges. And, of course, 
this material support provision of the PATRIOT Act actually 
precedes the PATRIOT Act. It had been applied and criticized 
since the Clinton administration.
    But could you tell us the importance of retaining that 
provision or something very close to it in terms of the FBI's 
efforts to combat terrorism?
    Mr. Mueller. The material support statute is--I wouldn't 
say instrumental, but exceptionally necessary in order to 
prevent terrorist attacks. And the reason is because you cannot 
always hope to catch the terrorist with the dynamite in their 
hands going to the place where they want to undertake the 
attack. And you cannot wait until the person has the device 
together and wants to use it. You have to address terrorism by 
looking at the financing. You have to address terrorism by 
looking at the recruiting. You have to address terrorism by 
looking at the organization. You have to address terrorism by 
looking at the travel. And if you find persons who are 
supporting in one way acts of terrorism, then you need a 
mechanism to address that and to arrest them and charge them, 
give them their full rights under the Constitution, but address 
it.
    One of the great problems in addressing terrorism is, you 
would say, it is somewhat of an inchoate crime. It is some 
place between somebody thinking up a terrorist act and actually 
accomplishing it. And it is between the thinking up of a 
terrorist act and having somebody accomplish it where we have 
to gather the intelligence to identify that person or persons 
and we have to make certain that they do not accomplish that 
terrorist act.
    The other point about material support is that if one 
person commits a crime--it is like the conspiracy statute. One 
person commits a crime. The crime does not have the full force 
and effect as if you have a number of persons conspiring 
together to commit that crime. In order to be effective in 9/
11, the persons who undertook that had to be financed; they had 
to have travel documents; they had to have persons helping them 
in order to commit that final act on September 11th. And the 
material support statutes enable us to address that type of 
participant substantially before that terrorist act is on its 
way to complete. So it is very important.
    Senator Cornyn. Not just the person that detonates the 
bomb, but the people who made that possible.
    Mr. Mueller. Who financed it, may have provided false 
identities, any number of ways that one can support a terrorist 
act.
    Senator Cornyn. I have just one other question or area that 
I am just curious about. I know Senator Specter and others have 
talked--there have been proposals for a Director of National 
Intelligence. But I must say that in our effort to promote 
information sharing, particularly not just at the Federal level 
but at the State and local levels--and I do appreciate your 
emphasis on that in your opening statement because I do think 
that is critical. I worry that our intelligence community is 
sort of like the layers of an onion, it seems like. And I 
really don't understand--and maybe there are people smarter 
than I am who can explain it to me--why we would just want to 
add another layer to that onion when it comes to the 
intelligence community, how that would actually promote 
information sharing in a way that would make us safer.
    Would you just comment on your views on that generally?
    Mr. Mueller. Well, again, I am Director of the FBI, not 
Director of CIA, but there is a belief--and George Tenet would 
articulate it--that in order to be effective, you have to be 
close to those who are doing the analysis, those who are doing 
the collection of the intelligence. And to the extent that you 
have someone that is divorced from that, you lose that 
effectiveness.
    We have put into place mechanisms to enhance our analytical 
capability across all of our organization when it comes to 
terrorism. We have another mechanism--well, we have two 
mechanisms. One is the National Security Council and the 
Homeland Security Council. So to the extent that one needs 
operational coordination in any area, either the National 
Security Council or the Homeland Security Council does that 
coordination.
    What I am less familiar with, do not understand fully, is 
the budget process in the intelligence community and how better 
coordination of that budget process might enhance the 
coordination of our intelligence across the Government. And 
there I just do not feel that I have sufficient information to 
provide much input.
    Senator Cornyn. Let me just in quick follow-up, we, of 
course, have become familiar with the concept of jointness when 
it comes to fighting wars, joint training, joint operations. We 
have seen it in Afghanistan and Iraq between the various 
military branches.
    Is it too simplistic to think that perhaps in intelligence 
gathering and analysis and dissemination we could conceive of 
the intelligence community's job is to act jointly? Is that the 
goal?
    Mr. Mueller. We have got to, regardless of whether there is 
a DNI. It will only be effective if we are working in a 
coordinated way between the Federal agencies, whether it be 
FBI, Department of Homeland Security, CIA, NSA, DOD, DIA. In 
order to be effective, we have to have an intersection of 
intelligence with State and local law enforcement. In order to 
be effective, we have to work with our counterparts overseas, 
whether they be law enforcement or intelligence counterparts. 
And there has to be a sharing of information amongst all of 
these various players in ways that we have not in the past.
    Senator Cornyn. Thank you, Director Mueller.
    Thank you, Mr. Chairman.
    Chairman Hatch. Senator Schumer?

 STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Thank you, Mr. Chairman.
    First, Mr. Chairman, let me thank you for holding this 
hearing in the morning, as I had requested. I appreciate that 
very much, and I want to thank the Director not only for being 
here but for the time he spent with me last week going over the 
progress FBI has made on computers. And I will have more to say 
about that at another time.
    Today I want to talk a little bit about something that 
bothers me a great deal, and it will lead to a question to you, 
Mr. Director. Today, for the second time in as many weeks, 
there is evidence that a civilian contractor serving a senior 
position in the Iraqi prison system has a troubling history and 
a checkered record when it comes to prisoner abuse.
    Last week, we learned that Lane McCotter, who was ousted 
from the Utah corrections system when a schizophrenic inmate 
died after being strapped naked to a chair for 16 hours, that 
is a practice that McCotter defended and affirmatively 
endorsed. McCotter then went on to serve as an executive in a 
private prison company that was under investigation for denying 
prisoners access to medical treatment and violating other civil 
rights. And at that point, after that checkered past, to be 
kind, Attorney General Ashcroft appointed him to help rebuild 
Iraq's prison system.
    McCotter ended up being posted at Abu Ghraib where among 
his duties was the training of guards. This is a picture of 
McCotter along with Wolfowitz and Gary DeLand, and in the back 
is General Karpinski at Abu Ghraib.
    So his appointment raised serious questions, including 
whether he had anything to do with the Abu Ghraib crimes. And I 
ask Attorney General Ashcroft what was being done to 
investigate the role of civilian contractors in the Iraqi 
prison scandal. I am still awaiting a response.
    Now, today we learned--or I just learned this week that 
there is another leader of the prisons in Iraq with a similarly 
troubling past. So it makes the questions we have asked the 
Attorney General even more urgent. While running Connecticut's 
prison system, John Armstrong, here pictured in Iraq, made a 
practice of shipping even low-level offenders to a supermax 
facility in Virginia. It was notorious, this facility, for its 
use of excessive force. It ranges from the unjustified use of 
stun guns shooting 50,000 volts through prisoners--these are 
low-level--to locking inmates in five-point restraints for such 
lengthy periods that they were routinely forced to defecate on 
themselves.
    Even after advocates objected and asked Armstrong to 
reconsider, he persisted in sending Connecticut prisoners to 
this jail where they were subject to treatment many have 
described as torture. Armstrong resigned as a result of the 
chorus of criticism over this decision.
    But that was not all. When Armstrong resigned, he was under 
a cloud of credible allegations that he tolerated and 
personally engaged in sexual harassment of female employees 
under his command. One of the women who sued and claimed 
Armstrong had harassed her personally received a settlement of 
a quarter of a million dollars. And despite this record, 
Armstrong was tapped to serve as the deputy director of 
operations for the prison system in Iraq.
    One official with a history of prisoner abuses raises an 
eyebrow, but two means we are really beginning to have a 
problem. Why would we send officials with such disturbing 
records to handle such a sensitive mission? That is beyond me. 
It cries out for explanation. Obviously, we have an obligation 
to ensure that all of those responsible are brought to justice, 
and we have a duty to guarantee that a handful of privates do 
not take the fall if they were directed by others. They should 
be disciplined appropriately, but when you read, for instance, 
what Sivits did today, that is, he was required or asked to 
escort prisoners to a certain place, he did not participate in 
what was going on--he saw it and did not report it to higher-
ups--obviously, that is not sufficient.
    This is unfair, and what bugs me the most, as somebody who 
really cares about our troops--I have traveled from one end of 
the State to the other and watched our troops go off to Iraq. I 
see them saying goodbye to their families, and they do it with 
a sense of duty, honor. And now wherever an American soldier 
walks overseas, these pictures come to other people's mind. It 
is unfair to them.
    So we have got to get to the bottom of this, and if we are 
sending abusers, habitual abuses of what is normally conceded 
as rights, and putting them in charge of the prisons where we 
learned the abuses are now occurring, we need to know why it is 
happening and what is being done about it. We need to know if 
these men or others committed crimes in Iraq and whether they 
will be brought to justice.
    As you know, if the FBI does not investigate and DOJ does 
not prosecute the civilians who committed these crimes, no one 
will. From what I understand, DOD may be saying it will 
investigate the crimes by civilian contractors and pass them 
along to the Department of Justice. That seems to me to be an 
unacceptable solution, Mr. Director. The DOD investigators know 
how to go after military crimes. That is their expertise. 
Civilian crimes, to be prosecuted in civilian courts, are a 
whole different story. We need professional prosecutors and 
criminal investigators on the job. We need them now. I would 
like to see us find out who did this, punish them 
appropriately, and move on. I say that as somebody who has been 
a supporter of the President's policies in Iraq, or at least 
supported the war and the money to go to the troops.
    So the first question I have for you: Does it make any 
sense to have the DOD investigate civilians who cannot be 
prosecuted in military courts? Why shouldn't the FBI be doing 
this type of investigation?
    Mr. Mueller. Well, with all due respect, Senator, that was 
a lengthy statement before the question, and I do think it is a 
little bit unfair because you know that I cannot respond to the 
assertions you make, either about these individuals--
    Senator Schumer. I am not asking that.
    Mr. Mueller. I know, but I do think it is unfair knowing 
that I cannot respond and defend either the individuals--
    Senator Schumer. I am not asking you to do that. I am 
asking--
    Mr. Mueller. --or the Attorney General. And I would be 
happy to answer the question, but I do want to say that you and 
I know that I was not at all aware of this, what you are 
portraying today, that--
    Senator Schumer. Well, the first one has been public for a 
week, McCotter.
    Mr. Mueller. In any event, I know that the Department of 
Justice is having discussions with DOD as to the jurisdiction. 
I do not know what the result of those discussions will be.
    Senator Schumer. Here is what I want to bring out, and if I 
had gotten answers from the Attorney General, I would not be 
asking you these questions. But I am not asking you to comment 
on any individual case, obviously. The first one has been 
public for a week. It has been in lots of different newspapers 
and stuff. The second one we just came across today.
    But if there are civilian contractors who may have broken 
the law, whoever they may be, does it make any sense to have 
DOD do the investigation? That is what I cannot figure out. 
They don't have jurisdiction.
    Mr. Mueller. Well, my understanding is they may have 
jurisdiction. That is being worked out. I do not know the basis 
on which they would have jurisdiction, and as in any 
investigation, it would be dependent on who you have to 
investigate. The general who investigated the abuses at Abu 
Ghraib did a superior job, and I think most persons in the 
Senate have said so.
    Senator Schumer. Right.
    Mr. Mueller. And so, again, it is where the jurisdiction 
lies and who is doing the investigation, and I do believe that, 
as happened in the investigation of Abu Ghraib, a general or a 
person in the DOD can undertake a full, comprehensive 
investigation. But it really depends on where the jurisdiction 
lies, and that is being discussed.
    Senator Schumer. Let's just take a hypothetical. A civilian 
appointee is involved in the prisons, gave the order to do 
things that violate the law to Iraqi prisoners. Why wouldn't we 
have the FBI do the investigation? Is there any doubt that DOD 
cannot discipline people who are not under military command?
    Mr. Mueller. Again, I would have to refer you to the 
Department on the jurisdictional issues, which they are working 
on now. My understanding is that there may be a basis upon 
which these individuals could be tried by the military, but I 
am not familiar with the arguments. And, again, I think it is 
still up in the air.
    Senator Schumer. So you--okay. I will ask, Mr. Chairman, 
that I get an answer in writing from the Director if I am not 
going to get one from the Attorney General about whether DOD 
has jurisdiction. And if not--
    Mr. Mueller. I think there will be--I do believe there will 
be an answer. I am not certain that the answer has been fully 
clarified as yet. And I am not certain of the rationale or the 
reasons why we do not have--why there is no answer currently.
    I can tell you, if requested, I believe we would be 
available to quite obviously investigate, but, again, it gets 
down to jurisdiction.
    Senator Schumer. And all things being equal, if the DOD did 
not have jurisdiction to actually prosecute these folks, then 
wouldn't it make sense for the FBI to do the investigation 
rather than DOD and then turn over the information to--
    Mr. Mueller. Yes.
    Senator Schumer. Thank you.
    Chairman Hatch. Your time is up.
    Senator Sessions, will be--unless Senator Durbin comes 
back--our last one.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman.
    On the question of the issue that Senator Schumer raised, 
Senator Schumer, I think all on this Committee supported the 
legislation that I offered in 2000 that became law to make 
contractors of DOD subject to criminal prosecution by the 
Department of Justice. I think the Act probably contemplated 
investigations being done by DOD in the field, but it also, I 
think, would probably allow FBI to investigate in the field. 
The ultimate prosecution would be by the Department of Justice. 
And I certainly have no concern or doubt that DOD can 
investigate it. I am familiar with the military legal system, 
the JAG officers and their abilities, and they are first-rate. 
I don't see any conflict of interest. The military is very 
upset about what happened in Abu Ghraib prison, and they want 
something done about it. So I think we will see that everybody 
that is guilty prosecuted.
    I am glad that we had that statute passed. Without it, we 
would not have been able to prosecute. I do not believe these 
contractors could be prosecuted except perhaps in Iraq without 
this statute that we just passed a few years ago.
    I think the contractors are not appointed by the Attorney 
General; however, I think they are appointed by the Department 
of Defense and those agencies. So I really do not think that 
Attorney General Ashcroft needs to take the blame for that. But 
I may be wrong.
    Senator Schumer. Just if I could, McCotter was appointed by 
DOJ.
    Senator Sessions. By DOD?
    Senator Schumer. DOJ.
    Senator Sessions. I have been asked a number of times, 
well, what about contractors? And I think the right approach is 
this: We need contractors. We need people who may be retired 
FBI agents who are willing to go to Iraq and help do the 
interviews and investigations. We need people who know how to 
run prisons that can help us in wartime run a prison. A young 
19-year-old MP does not know the ins and outs of bringing up a 
prison and bringing it to operation. But we do need to monitor. 
And I think backgrounds are important. Senator Schumer, I think 
you raise an important there. And, in addition to that, they 
need to be monitored in the field, and somebody needs to be in 
charge of them. That is one of the conclusions I reached about 
this prison system. We have yet to see--I think we will see who 
they are responsible to and who actually had control over them. 
But they have got to be disciplined just like any other 
official.
    With regard to the PATRIOT Act, we have had a chorus of 
people going around saying all our liberties are threatened by 
the PATRIOT Act, as Senator Cornyn noted. So, first of all, we 
need to defend the Act. It is critical and valuable to us. The 
core parts of it are just absolutely essential. And I was 
pleased to see that Senator Feingold, who is a fine civil 
libertarian, agrees with the roving wiretaps and some of the 
other key provisions in there.
    With regard to those issues that are somewhat in dispute, 
that are complained of, I think they are very small. But the 
sneak-and-peek is not a small issue. Do you agree?
    Mr. Mueller. Absolutely. It is a very important issue.
    Senator Sessions. Now, you--
    Mr. Mueller. And they call it sneak-and-peek, and that is 
the wrong--it is delayed notification. Delayed notification. 
Delayed notification. They get these names, if you will pardon 
me just for a second, that are pejorative, that undercut the 
understanding of the public and exactly what is happening. And 
it is not that anybody goes in and sneaks and peeks. In fact, 
you get a court order to do a search. You do the search. And 
what you want it to do is delay the notification as you 
continue the investigation.
    Senator Sessions. Exactly correct. So you have to have a 
search warrant submitted to a Federal judge with probable cause 
evidence that there is evidence of a crime inside the house or 
residence you want to search, and you can get those, and we 
have been doing those in America for hundreds of years, I 
suppose. Is that right?
    Mr. Mueller. That is correct.
    Senator Sessions. They are done every day all over America. 
We see on television people raid a drug house or these law-and-
order shows, they are always getting search warrants and judges 
approve them, and they go in and do their search.
    Now, the difference here is simply that when you are 
dealing with a terrorist organization, the issue may be a life-
and-death question. Is that right?
    Mr. Mueller. Correct.
    Senator Sessions. And you want to maybe find out if there 
are pieces of a bomb being assembled in that house. And it may 
be important to protecting thousands of American citizens that 
we do not tell the bad guys, the terrorists, that very moment 
that we know and we are on to them; and that you would have the 
legal power to do the search, and you simply would not announce 
to the people searched that day that the search occurred. Isn't 
that what it is all about?
    Mr. Mueller. That is it. Simply, that is what it is.
    Senator Sessions. I just think that is a critically 
valuable tool in terrorism investigations, and one of the 
things that happens is, as a former prosector myself, if you do 
the search too quickly, you tell everybody in the organization 
you are on to them. They know you are on to the bad guys. And 
you do not want to do that sometimes. Sometimes that is 
critical that you not, and these kinds of delayed notifications 
were in place in the law even before the PATRIOT Act, were they 
not?
    Mr. Mueller. They were, and they were used in a number of 
different investigations, for instance, narcotics 
investigations where you do an investigation, an informant says 
there is in a locker some place an amount of cocaine. You do 
not want that cocaine to hit the street, but you have not 
completed the investigation. You get a search warrant, you go 
in, and you replace it with a white substance so it does not 
hit the street and you continue the investigation. And it has 
happened any number of time.
    Senator Sessions. But even then, you have to ask a judge to 
allow you not to notify immediately. Isn't that right?
    Mr. Mueller. Yes, sir.
    Senator Sessions. A judge would have to approve your 
decision not to notify.
    Mr. Mueller. Yes.
    Senator Sessions. I do not understand the library. I mean, 
you can subpoena my bank records, my medical records, my 
telephone records. It is done every day in America by the 
thousands, every day. To say you cannot subpoena whether you 
checked out a book on bomb making from the library to me is 
breathtaking in its lack of understanding of the way the 
criminal justice system works. I do not see that librarians 
deserve a special protection here like priest and penitent.
    Senator Sessions. Is there anything in the library of 
standards that you are aware of that represents an expansion or 
some sort of threat to liberty?
    Mr. Mueller. No. As I think you are aware, being a former 
prosecutor, in criminal investigations, a grand jury subpoena 
is allowable certainly to any number of institutions, including 
libraries, and the standard is basically a relevance standard. 
And so it is not new.
    The one example is Kaczynski, who was the Unabomber, wrote 
manifestos. In those manifestos he had excerpts from books that 
were difficult to get. We were able, with the help of the 
library, to identify he was the person who had utilized those 
books and put together the fact that he had taken pieces from 
these books to put in his manifestos as he drafted, edited and 
submitted those manifestos while he was committing a series of 
bomb attacks throughout the United States.
    Chairman Hatch. If the Senator will yield, it is new, with 
regard to the PATRIOT Act, in bringing the laws against 
domestic terrorism up to speed with other laws.
    Mr. Mueller. Right.
    Senator Sessions. You are right, Mr. Chairman. That is the 
fundamental point of it.
    Mr. Mueller. Thank you very much.
    Senator Sessions. Director Mueller, you are a professional. 
We are so glad you are here at this time in history. I have 
followed your career when we were United States attorneys, and 
I have seen you in the Department of Justice. I think there are 
few people in America that have tried as many cases, who has 
been involved in as many investigations, long before you 
reached the august position you are in today, as a grassroots 
prosecutor, working with FBI agents, DEA agents, intelligence 
agents, and you are a professional. You were always known to be 
a professional. You were appointed United States attorney under 
the Clinton administration and under the Bush or Reagan 
administrations. You have a bipartisan reputation, and we are 
glad you are there.
    Now, one thing I am concerned about, as we go forward with 
the entry-exit visas into America, the biometrics that are 
being discussed to bring some ability to make this system work. 
It seems to me that the United States, and most other nations 
of the world--
    Chairman Hatch. Senator, your time is up, but if you would 
like to finish that one sentence, that would be fine, and then 
we will go to--
    Senator Sessions. It seems to me that we need a system that 
stays consistent with our investment, which is fingerprinting. 
That has proven to work. We have got a system designed based on 
that. Should we not, as we expand our ability, make sure that 
the fingerprint utilization and computer system works for us 
with regard to entries and exits from America?
    Mr. Mueller. Yes, it has got to be. There has got to be 
interoperability and expansion of the system ourselves, working 
together with the Department of Homeland Security, to be on the 
cutting edge of the use of fingerprints and all of its various 
manifestations.
    Senator Sessions. Thank you. It is utilized in every police 
department in America today, and it works extraordinarily well.
    Chairman Hatch. Senator Durbin?

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Thank you very much, Mr. Chairman. Director 
Mueller, thanks for being here, and thanks for being so 
accessible and so candid in your answers, both before the 
Committee and in person.
    Mr. Chairman, I might also note that this is a sad 
anniversary. It is almost 14 months now since the Attorney 
General has appeared before this Committee. I know he is a busy 
man and has extraordinary responsibilities, but so do Secretary 
Rumsfeld and Secretary Powell, and they have made themselves 
available before the appropriate authorizing committees time 
and time and time again.
    I am troubled that, at this moment of national security 
being a major issue and concerns about constitutional 
liberties, that this Committee cannot possibly perform its 
constitutional responsibility if the Attorney General continues 
to refuse to come before us. I would hope that you would appeal 
to him, personally.
    Chairman Hatch. Senator, he is going to come in June.
    Senator Durbin. Come in June, so it will only be 15, 16 
months since last we saw him. I hope that when he comes, it is 
not another hurried appearance, where those of us at the end of 
the table are told he has to be off to a noon meeting. That has 
happened before, and I hope it does not happen again.
    I would like to ask if--
    Chairman Hatch. Just so the record is clear, he was going 
to come at the end of March or in March, but then he got very 
sick--
    Senator Durbin. I am perfectly aware of the medical 
problems he faced.
    Chairman Hatch. We will get him in here.
    Senator Durbin. It will be great to see him. It has been a 
long time.
    Let me ask you this, Director Mueller. Can you clarify 
something about Nicholas Berg? I am troubled by the press 
reports that have been out about him, and what a tragedy that 
this would happen to any person and be publicized in a fashion 
so that the world and his family would know these barbaric 
circumstances that led to his death. It should be condemned by 
everyone.
    But tell me about this man. Was he detained in Iraq when he 
tried to leave because he was under investigation or there was 
some suspicion he had done something wrong?
    Mr. Mueller. My understanding is that he had been detained 
by Iraqi police officers. The circumstances under which they 
detained him, I am not sure are totally clear. He was detained. 
He came to our attention. We did an indices check and 
determined that he had had some tangential association with 
Moussaoui, whom I believe you know was arrested shortly before 
September 11th, which warranted us doing follow-up interviews. 
And we did follow-up interviews with Mr. Berg, found that he 
had, as far as we were concerned, no association with 
terrorism. He was then released.
    At the time of his release, he was spoken to by, I believe, 
individuals of the CPA, and I believe our agents as well, who 
urged him to leave. And my understanding is that CPA also 
indicated that if he did not have the wherewithal to leave, 
they would supply it to him. He turned them down, went to a 
hotel. I also believe that there was a request made by CPA 
authorities that they be able to alert his family, and my 
understanding, and I would have to check on this, is that he 
declined that that be done, and then he became missing from his 
hotel. It is indeed a tragedy, but those are the circumstances, 
to the best of my knowledge.
    Senator Durbin. Well, and of course it has been publicized 
that his family went to Federal Court in Philadelphia, if I am 
not mistaken, trying to force his release from detention so 
that he could leave the country. So it appears that there is 
some conflict as to his intentions and what actually occurred.
    But I think you have made it clear for the record, and I 
hope it is unequivocal, that there has never been any suspicion 
of any wrongdoing or illegal activity on his part.
    Mr. Mueller. No. As I said before, he was a person we 
interviewed in the wake of September 11th, and the interview 
indicated that he was not associated in any way with 
terrorists, and that was again confirmed when we interviewed 
him in Iraq.
    Senator Durbin. Was he at any time working with a U.S. 
agency for intelligence or any agency that you are aware of to 
try to gather intelligence?
    Mr. Mueller. Not to my knowledge. My understanding was he 
was in Iraq to try to develop his own private business that was 
related to cell phone towers, I believe.
    Senator Durbin. Those are the press reports. And I also 
would like to switch, if I could, to an issue that has been 
discussed over and over here, and that is the PATRIOT Act, 
which I voted for and most members did, but I am also co-
sponsoring with Senator Craig the SAFE Act not in an attempt to 
eliminate the PATRIOT Act, but rather, in specific instances, 
to require what we consider to be necessary safeguards within 
that Act.
    I will concede that a lot of work went into it, but I think 
most Senators will agree that an act of this historic moment 
moved through in record time. It was in light of our concern 
about the threat of terrorism. We tried to be responsive. We 
put in a safeguard to say that we would revisit some of these 
issues. We put sunsets on the provisions to make sure that they 
were wise in their conception and being used in a fair and 
judicious fashion.
    I am concerned, though, as I look at the provisions in the 
act, that we have just made some statements here at the hearing 
that I do not think accurately reflect the changes in the law 
that are included in this PATRIOT Act. This Section 213, the 
delayed notification, sneak-and-peek, depending on your 
personal feelings on this, clearly puts a standard of 
reasonable period into the law as to how long you can proceed 
without notification.
    The court cases, as you are well aware, said 7 days, and 
after 7 days, at that point, the Government has a burden to 
come forward and explain why they are delaying the 
notification. But this provision, and this is in existing law--
the 7-day notification--but in the PATRIOT Act what we are 
dealing with here is virtually indefinite in terms of 
notification.
    What we have tried to do--what Senator Craig and I have 
tried to do--is to provide specific exceptions for 
circumstances that have been described here. We have said that 
we would continue to delay notification of a warrant if there 
was any possibility that notification would endanger a life or 
physical safety, result in flight from prosecution or a 
destruction of or tampering with evidence. Now, I think that 
creates a reasonable model, a reasonable standard, which says 
that if you cannot establish one of those elements, then at 
some point notification must be given.
    What exception do you think we have missed here in this 
providing for notification that you think would somehow 
jeopardize your work?
    Mr. Mueller. Well, every investigation is different. There 
are some investigations where delay of, yes, 24 hours would be 
sufficient. There are some investigations where delays of 30 or 
60 days might be entirely appropriate if it is a large 
investigation. What the PATRIOT Act, I think, appropriately 
does is leave the duration up to the judge to decide on the 
facts that are presented when the judge issues the order, and I 
have not found judges reluctant to act and set parameters based 
on what the prosecutors and the agents show them.
    In terms of the changes to the PATRIOT Act that is proposed 
by the SAFE Act, the elimination of ``seriously jeopardizing an 
investigation'', I think, would adversely affect our ability to 
set a set of circumstances before a judge which shows that the 
delay is necessitated by the unique circumstances of 
investigation.
    What I believe the SAFE Act does is leave in some more 
narrowly defined bases for obtaining the delayed notification, 
but there are a number of circumstances that come up in an 
investigation which I don't think you can necessarily cubby-
hole, but that a judge looking at it can say, okay, this is 
going to seriously jeopardize an investigation, and therefore I 
ought to delay the notification for 60 or 90 days.
    Senator Durbin. Director, I think that, though I may not 
agree with the specific language, I think that is a good-faith 
suggestion.
    Mr. Chairman, you have suggested a hearing on the SAFE Act, 
and when we get into it, I think, if we are going to try to 
establish standards that meet your goals and ours, we are I 
think going to tighten it without eliminating the expansion of 
Government authority to go after terrorism. I would like to 
work with the Chairman and the Director to come up with that 
language. I think that is important, and maybe we can reach 
that goal. I hope that we can in the course of what we are 
setting out to do.
    I would also just like to make one comment before I close, 
and you have been very patient, Mr. Director, as has the 
Chairman, waiting for those of us in lowly status to have our 
moment, but let me just say that many have said here we just 
have not heard any complaints about this PATRIOT Act. Well, I 
do not think that that is an appropriate standard when it comes 
to protecting our freedoms in this country. Much of the work 
being done under the PATRIOT Act will be done without the 
knowledge of the person who may be having their rights 
violated, and so they may not even have knowledge that this is 
going on when they are the subject of investigations or 
wiretaps or searches under the PATRIOT Act.
    So I would hope that we can still establish, as a standard, 
that there are very, very efficient ways for this Government to 
collect information which clearly violate the Constitution, and 
we have to find a way to draw a line to preserve security in 
this society while still maintaining our mutual oath to uphold 
the Constitution.
    Chairman Hatch. Thank you, Senator. Your time is up.
    I have not used my time, nor do I intend to, but let me 
just say that I think the PATRIOT Act is one of the most 
misunderstood acts of legislation I have ever seen. The media, 
and the public, and many of the pundits have focused on 
hypothetical abuses. But as my dear friend from California, 
Senator Feinstein, has mentioned at a prior hearing, not even 
the ACLU has been able to cite a single instance of actual 
abuse, and they watch things very carefully, and I commend them 
for doing so because they serve this country well when they do 
that.
    I held a Senate hearing in Utah in April, and we invited a 
plethora of critics of the PATRIOT Act, yet not one single one 
of them could cite even one example of actual abuse, not the 
ACLU, not the League of Women Voters, not the Conservative 
Caucus, not the Eagle Forum, not the Libertarian Party. They 
were all there. They were all hypothetical: Oh, what if--what 
if this happened or that happened.
    But my big ``what if'' is what if we do not have the tools 
to prevent terrorism in this country in the future? That is why 
the PATRIOT Act is so important. Now, we will have further 
hearings on this, and I do intend to have a hearing on the SAFE 
Act. I think my colleagues feel that that is something that 
should be done, and Senator Leahy and I will hold that hearing.
    But I just want to thank you. I know you have got to go, 
and I know we have kept you beyond the 1 o'clock time that I 
said I would try to keep it in, and I have appreciated your 
patience and your kindness in spending this amount of time with 
us, and it has been very beneficial and fruitful for the 
Committee and I think for the public at large who may see this 
on C-SPAN.
    With that, then, Senator?
    Senator Leahy. I also want to join with you, Mr. Chairman, 
in doing that and thanking the Director. He has been here. He 
has answered a whole lot of questions. This has been a good 
hearing. Normally, in the role of Ranking Member, I could ask 
my questions and leave. I have stayed here for it because I 
found the answers and the questions, on both sides of the 
aisle, to be very informative, very worthwhile. I appreciate 
the information.
    I might just add a personal point of view. I know you quite 
well, I believe. You are former law enforcement, former Marine. 
I can imagine you felt like a former Marine who is near and 
dear to me, how he felt when he saw the pictures of the 
prisoners. And I think, as I am sure you do, the 138,000 
American men and women over there in the uniform who are 
carrying out their duties every day, doing exactly what they 
should do and put in increased danger, to say nothing about 
your own agents, and contractors.
    So I thank you for being here. And, Mr. Chairman, I thank 
you, and I applaud you for this hearing.
    Chairman Hatch. Well, thank you. And I just want to thank 
the FBI. The American people need to know the tremendous job 
that you folks are doing for our country. I mean, you are just 
under pressure all of the time. Most of the agents are 
underpaid for the risks they take and the pain that they go 
through for all of us.
    I know that a person like you could go out into the private 
sector and make a fortune, but you have chosen to serve in 
public service, and sometimes you have to take abuse for doing 
that, that you really should not have had to take. And to be 
honest with you, I have really appreciated you being here 
today, and I appreciate the service that you are giving.
    Now, I will keep the record open for any written questions 
that any member of the Committee would care to send, and I hope 
that you and your staff will answer those as soon as possible.
    Mr. Mueller. Thank you, Mr. Chairman.
    Chairman Hatch. Just do not let anybody believe for a 
second that our FBI is not doing the very best it can, and I do 
not know where we would be without folks like you and the good 
public servants who serve us through the FBI.
    Thank you for the time. Sorry to keep you so long.
    Mr. Mueller. Thank you.
    Chairman Hatch. With that, we will recess until further 
notice.
    [Whereupon, at 1:28 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.] 

[GRAPHIC] [TIFF OMITTED] T0331.001

[GRAPHIC] [TIFF OMITTED] T0331.002

[GRAPHIC] [TIFF OMITTED] T0331.003

[GRAPHIC] [TIFF OMITTED] T0331.004

[GRAPHIC] [TIFF OMITTED] T0331.005

[GRAPHIC] [TIFF OMITTED] T0331.006

[GRAPHIC] [TIFF OMITTED] T0331.007

[GRAPHIC] [TIFF OMITTED] T0331.008

[GRAPHIC] [TIFF OMITTED] T0331.009

[GRAPHIC] [TIFF OMITTED] T0331.010

[GRAPHIC] [TIFF OMITTED] T0331.011

[GRAPHIC] [TIFF OMITTED] T0331.012

[GRAPHIC] [TIFF OMITTED] T0331.013

[GRAPHIC] [TIFF OMITTED] T0331.014

[GRAPHIC] [TIFF OMITTED] T0331.015

[GRAPHIC] [TIFF OMITTED] T0331.016

[GRAPHIC] [TIFF OMITTED] T0331.017

[GRAPHIC] [TIFF OMITTED] T0331.018

[GRAPHIC] [TIFF OMITTED] T0331.019

[GRAPHIC] [TIFF OMITTED] T0331.020

[GRAPHIC] [TIFF OMITTED] T0331.021

[GRAPHIC] [TIFF OMITTED] T0331.022

[GRAPHIC] [TIFF OMITTED] T0331.023

[GRAPHIC] [TIFF OMITTED] T0331.024

[GRAPHIC] [TIFF OMITTED] T0331.025

[GRAPHIC] [TIFF OMITTED] T0331.026

[GRAPHIC] [TIFF OMITTED] T0331.027

[GRAPHIC] [TIFF OMITTED] T0331.028

[GRAPHIC] [TIFF OMITTED] T0331.029

[GRAPHIC] [TIFF OMITTED] T0331.030

[GRAPHIC] [TIFF OMITTED] T0331.031

[GRAPHIC] [TIFF OMITTED] T0331.032

[GRAPHIC] [TIFF OMITTED] T0331.033

[GRAPHIC] [TIFF OMITTED] T0331.034

[GRAPHIC] [TIFF OMITTED] T0331.035

[GRAPHIC] [TIFF OMITTED] T0331.036

[GRAPHIC] [TIFF OMITTED] T0331.037

[GRAPHIC] [TIFF OMITTED] T0331.038

[GRAPHIC] [TIFF OMITTED] T0331.039

[GRAPHIC] [TIFF OMITTED] T0331.040

[GRAPHIC] [TIFF OMITTED] T0331.041

[GRAPHIC] [TIFF OMITTED] T0331.042

[GRAPHIC] [TIFF OMITTED] T0331.043

[GRAPHIC] [TIFF OMITTED] T0331.044

[GRAPHIC] [TIFF OMITTED] T0331.045

[GRAPHIC] [TIFF OMITTED] T0331.046

[GRAPHIC] [TIFF OMITTED] T0331.047

[GRAPHIC] [TIFF OMITTED] T0331.048

[GRAPHIC] [TIFF OMITTED] T0331.049

[GRAPHIC] [TIFF OMITTED] T0331.050

[GRAPHIC] [TIFF OMITTED] T0331.051

[GRAPHIC] [TIFF OMITTED] T0331.052

[GRAPHIC] [TIFF OMITTED] T0331.053

[GRAPHIC] [TIFF OMITTED] T0331.054

[GRAPHIC] [TIFF OMITTED] T0331.055

[GRAPHIC] [TIFF OMITTED] T0331.056

[GRAPHIC] [TIFF OMITTED] T0331.057

[GRAPHIC] [TIFF OMITTED] T0331.058

[GRAPHIC] [TIFF OMITTED] T0331.059

[GRAPHIC] [TIFF OMITTED] T0331.060

[GRAPHIC] [TIFF OMITTED] T0331.061

[GRAPHIC] [TIFF OMITTED] T0331.062

[GRAPHIC] [TIFF OMITTED] T0331.063

[GRAPHIC] [TIFF OMITTED] T0331.064

[GRAPHIC] [TIFF OMITTED] T0331.065

[GRAPHIC] [TIFF OMITTED] T0331.066

[GRAPHIC] [TIFF OMITTED] T0331.067

[GRAPHIC] [TIFF OMITTED] T0331.068

[GRAPHIC] [TIFF OMITTED] T0331.069

[GRAPHIC] [TIFF OMITTED] T0331.070

[GRAPHIC] [TIFF OMITTED] T0331.071

[GRAPHIC] [TIFF OMITTED] T0331.072

[GRAPHIC] [TIFF OMITTED] T0331.073

[GRAPHIC] [TIFF OMITTED] T0331.074

[GRAPHIC] [TIFF OMITTED] T0331.075

[GRAPHIC] [TIFF OMITTED] T0331.076

[GRAPHIC] [TIFF OMITTED] T0331.077

[GRAPHIC] [TIFF OMITTED] T0331.078

[GRAPHIC] [TIFF OMITTED] T0331.079

[GRAPHIC] [TIFF OMITTED] T0331.080

[GRAPHIC] [TIFF OMITTED] T0331.081

[GRAPHIC] [TIFF OMITTED] T0331.082

[GRAPHIC] [TIFF OMITTED] T0331.083

[GRAPHIC] [TIFF OMITTED] T0331.084

[GRAPHIC] [TIFF OMITTED] T0331.085

[GRAPHIC] [TIFF OMITTED] T0331.086

[GRAPHIC] [TIFF OMITTED] T0331.087

[GRAPHIC] [TIFF OMITTED] T0331.088

[GRAPHIC] [TIFF OMITTED] T0331.089

[GRAPHIC] [TIFF OMITTED] T0331.090

[GRAPHIC] [TIFF OMITTED] T0331.091

[GRAPHIC] [TIFF OMITTED] T0331.092

[GRAPHIC] [TIFF OMITTED] T0331.093

[GRAPHIC] [TIFF OMITTED] T0331.094

[GRAPHIC] [TIFF OMITTED] T0331.095

[GRAPHIC] [TIFF OMITTED] T0331.096

[GRAPHIC] [TIFF OMITTED] T0331.097

[GRAPHIC] [TIFF OMITTED] T0331.098

[GRAPHIC] [TIFF OMITTED] T0331.099

[GRAPHIC] [TIFF OMITTED] T0331.100

[GRAPHIC] [TIFF OMITTED] T0331.101

[GRAPHIC] [TIFF OMITTED] T0331.102

[GRAPHIC] [TIFF OMITTED] T0331.103

[GRAPHIC] [TIFF OMITTED] T0331.104

[GRAPHIC] [TIFF OMITTED] T0331.105

[GRAPHIC] [TIFF OMITTED] T0331.106

[GRAPHIC] [TIFF OMITTED] T0331.107

[GRAPHIC] [TIFF OMITTED] T0331.108

[GRAPHIC] [TIFF OMITTED] T0331.109

[GRAPHIC] [TIFF OMITTED] T0331.110

[GRAPHIC] [TIFF OMITTED] T0331.111

[GRAPHIC] [TIFF OMITTED] T0331.112

[GRAPHIC] [TIFF OMITTED] T0331.113

[GRAPHIC] [TIFF OMITTED] T0331.114

[GRAPHIC] [TIFF OMITTED] T0331.115

[GRAPHIC] [TIFF OMITTED] T0331.116

[GRAPHIC] [TIFF OMITTED] T0331.117

[GRAPHIC] [TIFF OMITTED] T0331.118

[GRAPHIC] [TIFF OMITTED] T0331.119

[GRAPHIC] [TIFF OMITTED] T0331.120

[GRAPHIC] [TIFF OMITTED] T0331.121

[GRAPHIC] [TIFF OMITTED] T0331.122

[GRAPHIC] [TIFF OMITTED] T0331.123

[GRAPHIC] [TIFF OMITTED] T0331.124

[GRAPHIC] [TIFF OMITTED] T0331.125

[GRAPHIC] [TIFF OMITTED] T0331.126

[GRAPHIC] [TIFF OMITTED] T0331.127

[GRAPHIC] [TIFF OMITTED] T0331.128

[GRAPHIC] [TIFF OMITTED] T0331.129

[GRAPHIC] [TIFF OMITTED] T0331.130

[GRAPHIC] [TIFF OMITTED] T0331.131

[GRAPHIC] [TIFF OMITTED] T0331.132

[GRAPHIC] [TIFF OMITTED] T0331.133

[GRAPHIC] [TIFF OMITTED] T0331.134

[GRAPHIC] [TIFF OMITTED] T0331.135

[GRAPHIC] [TIFF OMITTED] T0331.136

[GRAPHIC] [TIFF OMITTED] T0331.137

[GRAPHIC] [TIFF OMITTED] T0331.138

[GRAPHIC] [TIFF OMITTED] T0331.139

[GRAPHIC] [TIFF OMITTED] T0331.140

[GRAPHIC] [TIFF OMITTED] T0331.141

[GRAPHIC] [TIFF OMITTED] T0331.142

[GRAPHIC] [TIFF OMITTED] T0331.143

[GRAPHIC] [TIFF OMITTED] T0331.144

[GRAPHIC] [TIFF OMITTED] T0331.145

[GRAPHIC] [TIFF OMITTED] T0331.146

[GRAPHIC] [TIFF OMITTED] T0331.147

[GRAPHIC] [TIFF OMITTED] T0331.148

[GRAPHIC] [TIFF OMITTED] T0331.149

[GRAPHIC] [TIFF OMITTED] T0331.150

[GRAPHIC] [TIFF OMITTED] T0331.151

[GRAPHIC] [TIFF OMITTED] T0331.152

[GRAPHIC] [TIFF OMITTED] T0331.153

[GRAPHIC] [TIFF OMITTED] T0331.154

[GRAPHIC] [TIFF OMITTED] T0331.155

[GRAPHIC] [TIFF OMITTED] T0331.156

[GRAPHIC] [TIFF OMITTED] T0331.157

[GRAPHIC] [TIFF OMITTED] T0331.158

[GRAPHIC] [TIFF OMITTED] T0331.159

[GRAPHIC] [TIFF OMITTED] T0331.160

[GRAPHIC] [TIFF OMITTED] T0331.161

[GRAPHIC] [TIFF OMITTED] T0331.162

[GRAPHIC] [TIFF OMITTED] T0331.163

[GRAPHIC] [TIFF OMITTED] T0331.164

[GRAPHIC] [TIFF OMITTED] T0331.165

[GRAPHIC] [TIFF OMITTED] T0331.166

[GRAPHIC] [TIFF OMITTED] T0331.167

[GRAPHIC] [TIFF OMITTED] T0331.168

[GRAPHIC] [TIFF OMITTED] T0331.169

[GRAPHIC] [TIFF OMITTED] T0331.170

[GRAPHIC] [TIFF OMITTED] T0331.171

[GRAPHIC] [TIFF OMITTED] T0331.172

[GRAPHIC] [TIFF OMITTED] T0331.173

[GRAPHIC] [TIFF OMITTED] T0331.174

[GRAPHIC] [TIFF OMITTED] T0331.175

[GRAPHIC] [TIFF OMITTED] T0331.176

[GRAPHIC] [TIFF OMITTED] T0331.177

[GRAPHIC] [TIFF OMITTED] T0331.178

[GRAPHIC] [TIFF OMITTED] T0331.179

[GRAPHIC] [TIFF OMITTED] T0331.180

[GRAPHIC] [TIFF OMITTED] T0331.181

[GRAPHIC] [TIFF OMITTED] T0331.182

[GRAPHIC] [TIFF OMITTED] T0331.183

[GRAPHIC] [TIFF OMITTED] T0331.184

[GRAPHIC] [TIFF OMITTED] T0331.185

[GRAPHIC] [TIFF OMITTED] T0331.186

[GRAPHIC] [TIFF OMITTED] T0331.187

[GRAPHIC] [TIFF OMITTED] T0331.188

[GRAPHIC] [TIFF OMITTED] T0331.189

[GRAPHIC] [TIFF OMITTED] T0331.190

[GRAPHIC] [TIFF OMITTED] T0331.191

[GRAPHIC] [TIFF OMITTED] T0331.192

[GRAPHIC] [TIFF OMITTED] T0331.193

[GRAPHIC] [TIFF OMITTED] T0331.194

[GRAPHIC] [TIFF OMITTED] T0331.195

[GRAPHIC] [TIFF OMITTED] T0331.196

[GRAPHIC] [TIFF OMITTED] T0331.197

[GRAPHIC] [TIFF OMITTED] T0331.198

[GRAPHIC] [TIFF OMITTED] T0331.199

[GRAPHIC] [TIFF OMITTED] T0331.200

[GRAPHIC] [TIFF OMITTED] T0331.201

[GRAPHIC] [TIFF OMITTED] T0331.202

[GRAPHIC] [TIFF OMITTED] T0331.203

[GRAPHIC] [TIFF OMITTED] T0331.204

[GRAPHIC] [TIFF OMITTED] T0331.205

[GRAPHIC] [TIFF OMITTED] T0331.206

[GRAPHIC] [TIFF OMITTED] T0331.207

[GRAPHIC] [TIFF OMITTED] T0331.208

[GRAPHIC] [TIFF OMITTED] T0331.209

[GRAPHIC] [TIFF OMITTED] T0331.210

[GRAPHIC] [TIFF OMITTED] T0331.211

[GRAPHIC] [TIFF OMITTED] T0331.212

[GRAPHIC] [TIFF OMITTED] T0331.213

[GRAPHIC] [TIFF OMITTED] T0331.214

[GRAPHIC] [TIFF OMITTED] T0331.215

                                 <all>

</pre></body></html>
